<html>
<title> - NEW ORLEANS HURRICANE AND FLOOD PROTECTION AND COASTAL LOUISIANA RESTORATION: STATUS AND PROGRESS</title>
<body><pre>[Senate Hearing 111-1195]
[From the U.S. Government Publishing Office]



                                                      S. Hrg. 111-1195
 
                       NEW ORLEANS HURRICANE AND
                 FLOOD PROTECTION AND COASTAL LOUISIANA
                    RESTORATION: STATUS AND PROGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                               
                 U.S. GOVERNMENT PUBLISING OFFICE
94-589 PDF           WASHINGTON : 2015                 
                               
________________________________________________________________________________________                               
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  
                               
                               


                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 16, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Landrieu, Hon. Mary L., U.S. Senator from the State of Louisiana.     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   140

                               WITNESSES

Walsh, Michael, Brigadier General, Commander, Division Engineer, 
  Mississippi Valley Division, U.S. Army Corps of Engineers......     7
    Prepared statement...........................................    11
    Responses to additional questions from Senator Boxer.........    22
    Response to an additional question from Senator Klobuchar....    26
    Responses to additional questions from Senator Inhofe........    26
Jacobs, Jeffrey, Scholar, National Research Council and Study 
  Director, Committee on New Orleans Regional Hurricane 
  Protection Projects............................................    46
    Prepared statement...........................................    49
    Response to an additional question from Senator Inhofe.......    55
Rault, Joseph M., Executive Committee Board Member, Pump to the 
  River..........................................................    56
    Prepared statement...........................................    59
    Responses to additional questions from Senator Inhofe........    73
Peyronnin, Steven, Executive Director of the Coalition to Restore 
  Coastal Louisiana..............................................    78
    Prepared statement...........................................    81
    Responses to additional questions from Senator Inhofe........    88
Twilley, Robert R., Professor, Department of Oceanography and 
  Coastal Sciences, Vice Chancellor, Research and Economic 
  Development, Louisiana State University........................    92
    Prepared statement...........................................    95
Jackson, Thomas L., P.E., D.WRE, Commissioner and Past President, 
  Southeast Louisiana Flood Protection Authority--East...........   105
    Prepared statement...........................................   108
    Responses to additional questions from Senator Inhofe........   119


   NEW ORLEANS HURRICANE AND FLOOD PROTECTION AND COASTAL LOUISIANA 
                    RESTORATION: STATUS AND PROGRESS

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full Committee) presiding.
    Present: Senators Boxer, Vitter, and Udall.
    Also present: Senator Landrieu.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you. Welcome everybody. We are going 
to get started with my opening statement. Then, as soon as 
Senator Landrieu and Senator Vitter arrive, I assume--Senator 
Vitter is here. Great. So, next we will turn to them and their 
opening statements and then we will turn to the Corps.
    Good afternoon. We are meeting today to examine progress 
made on hurricane protection and coastal restoration since the 
devastating hurricanes that struck Louisiana in 2005.
    After becoming Chair of this Committee, the very first 
field hearing that I held was in New Orleans to address post-
hurricane clean up, hurricane protection and restoration of the 
wetlands. These issues remain top priorities of this Committee, 
and I want to thank Senators Landrieu and Vitter for making 
sure that we keep our eye on the ball here because nothing is 
going to be done unless we keep our eye on the ball.
    Hurricanes Katrina and Rita were a wake-up call about the 
life and death role played by our flood control systems and the 
dire consequences of not properly designing this critical 
infrastructure, and also the consequences of not executing well 
in the aftermath of a hurricane or any natural disaster.
    In my State, obviously we do not deal with hurricanes. We 
deal with earthquakes, flood, fire, and anything else that you 
can imagine. So, I think the wake-up call to America, 
regardless of political party, was A, are we doing enough to 
prevent, in this case, the flooding, and B, if we have an 
emergency and we need to evacuate folks and we need to do the 
job right, we better make sure we are prepared.
    To me, these storms showed why we must invest in restoring 
Louisiana's natural hurricane protection system, the wetlands. 
For centuries, the protective wetlands of the Louisiana coast 
blunted the force of countless storms, absorbing their energy 
and softening their impact. But those wetlands have been 
rapidly disappearing and they require our constant attention.
    We have learned a great deal over the past few years about 
why the New Orleans Hurricane Protection System failed. Groups 
of experts have identified important lessons from the disaster 
so that we are better prepared for the next hurricane, the next 
storm, the next flood. So, I think we are making progress in 
improving protections.
    In 2007, we took a major step forward.
    Senator Landrieu, please sit right there and then we will 
invite you to join us on the dais. Senator, sit right there. 
You are our first witness once I am finished and Senator Vitter 
is finished. They we turn to you.
    I was just saying that my very first field hearing, Madam 
Senator, was in New Orleans and it was just a few months after 
I took the gavel, so it must have been about March.
    Senator Landrieu. It was February.
    Senator Boxer. It was February, actually, after I took the 
gavel. And I was telling everybody that your constant pressure, 
your constant concern, along with Senator Vitter's, certainly 
has ensured everyone in this Country that I am not going to 
take my eye off of this. And I stated that we are making some 
progress. But we have a long, long, long way to go. You know, 
when the cameras are all there, it is one thing. When the 
cameras leave, we have got to do the rest of the hard work.
    In 2007, we took a major step forward in this Committee. We 
passed out of the Committee the Water Resources Development 
Act, for the first time in 7 years. This landmark legislation 
authorized critical water resources projects around the 
Country, including a comprehensive program to restore Louisiana 
wetlands and other important hurricane protection projects.
    Congress has invested nearly $14.5 billion for hurricane 
protection projects in Louisiana over the past 3 years. Because 
of this investment, there has been great progress to upgrade 
the New Orleans Hurricane Protection System. Nearly 4 years 
after Hurricane Katrina, we can take some comfort in that. But 
I think the three of us know, and lots of others know and they 
will be here coming forward, the experts who have come here 
from your home State, Senators, we know there is a lot more to 
do.
    Now, I understand that the Corps has stated that some 
hurricane protection projects preferred by local citizens are 
too costly and they have not been adequately studied. We are 
here to examine those decisions and to make sure the right 
choice is made that puts the safety of the citizenry first.
    And let me point this out. We know what the American people 
saw when they saw the mishandling in the aftermath of Katrina. 
It is in our minds until the day that we die. We see those 
images. And we know how we felt. Would it not be tragic if, at 
this moment, we chose the wrong fix? And I think it is very 
important, and I commend both Senators, for working together on 
this. It is essential that we do the right thing at this stage. 
Frankly, I am not into wasting hundreds of millions of dollars. 
I would rather spend more and get a project that I know meets 
the need.
    So, I look forward to hearing from our witnesses about the 
progress that has been made and the steps that we must take to 
be prepared in the future.
    My time is expired, so I will call on Senator Vitter and 
then Senator Landrieu.
    Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you very much, Madam Chair.
    Several months ago, I asked for this update hearing and you 
were very kind and generous to immediately agree. Thank you for 
that. Thank you for this hearing. You agreed to a similar 
request for that field hearing in early 2007 in the New Orleans 
area, and thank you very much for that, and for all of your 
continuing interest.
    Katrina certainly was, as we all know, a historic event. 
But I think it is important that we refocus about why it was.
    First of all, it is the only instance in our history that 
involved the complete and total evacuation of a major 
metropolitan area and the complete cessation, for some 
significant period of time, of all life and economic activity 
there.
    Second, we talk about it as a natural disaster. Of course, 
a hurricane is. But it was also a manmade disaster because most 
of the flooding we are talking about in the New Orleans area 
was directly due to design failures in the levee system, most 
notably the walls of the outflow canals, which we are going to 
talk a lot about today.
    So that is why it is so important that we get the fix 
right, as you said, so that we never have to repeat that sort 
of history.
    Now, I do want to say at the beginning that there is a lot 
that is good and there is a lot that is right that is going on 
in terms of the Corps' work and our overall recovery. Since 
Katrina, and then Rita, and more recently Gustav and Ike, we 
have had a truly unprecedented level of taxpayer support and 
that has come through this Committee and through this Congress, 
and everyone in Louisiana wants to say thank you. It has been 
absolutely unprecedented. It matched an unprecedented event. 
They have been unbelievably generous and unprecedented. And 
that is leading to important work that is moving forward, most 
notably building true what we call 100-year protection in the 
greater New Orleans area in time for the 2011 hurricane season. 
So that is good and that is very important.
    But I do want to underscore two big concerns I have as that 
very important work moves forward. First, Congress asked the 
Corps, mandated that the Corps look at and issue clear reports 
about what the next step might look like after we finish the 
100-year level of protection and asked them to be very focused 
and quite specific in coming up with project ideas for 
something called the Louisiana Coastal Area Study.
    My first big concern, and disappointment, is that in 
responding to that mandate, the Corps has been exceedingly 
general and exceedingly vague with their analysis rather than 
giving us the much more specific, project specific list of 
ideas that we asked for. That, obviously, is a big impediment 
to moving forward in terms of active consideration for the next 
step and that impacts all of coastal Louisiana.
    My second big, big concern is the one I think we are going 
to focus on in discussions with the witnesses today. That is 
that we are in the process of perhaps moving forward, I hope 
not, but perhaps moving forward with the wrong fix for the 
outfall canals.
    Madam Chair, you have been there. You know that what we are 
talking about is three what we call outfall canals, 17th Street 
Canal, Orleans Avenue Canal and London Avenue Canal. Most of 
the flooding of New Orleans after Katrina was a result of 
breaches in these canals. All of the flooding in New Orleans 
west of the Industrial Canal was essentially the result of 
that.
    These breaches were manmade in the sense that we now have 
the engineering analysis that says there were design flaws. 
These walls breached from below. They gave in from below. They 
were not over-topped, except in some limited instances. They 
gave way because they were not deep enough and they were not 
strong enough.
    The Corps right now is moving forward with Option 1 in 
terms of addressing that situation, rather than Option 2 or 2a. 
Option 1 is to close off the canals at the lake so that storm 
surge does not come into the canals and lead to a breach as it 
did with Katrina. But then, to artificially keep at a low level 
the water level in the canals rather than rebuilding the walls 
so that they are strong enough to accommodate a normal water 
level, which you can get in events.
    In contrast, Option 2, and 2a, is to actually fix the 
problem, which is the poorly designed walls, and rebuild those 
correctly. And so my second big concern, which will be the 
subject of at least most of my questions, I think of lot of our 
overall discussion, is that we are choosing the wrong fix for 
the biggest thing that went wrong, that caused catastrophic 
flooding in New Orleans.
    I do not want to repeat the mistakes of history. After 
Hurricane Betsy, all of us, the Country, made a big mistake and 
chose the wrong path forward in terms of our protection system 
in greater New Orleans. And that led to the devastation of 
Katrina. The Country chose that, basically, because it was the 
cheaper alternative.
    Right now, the Corps wants to move forward with Option 1 
and I think there is a push in that direction basically because 
it is a cheaper alternative. I do not want to repeat that grave 
mistake in history and save pennies on the front end and pay 
hundreds of billions of dollars on the back end with another 
catastrophic event.
    So, thank you for your leadership on this and I also thank 
my colleague, Senator Landrieu, for all of her leadership on 
these issues.
    Senator Boxer. Thank you, Senator. Senator Landrieu.

          OPENING STATEMENT OF HON. MARY L. LANDRIEU, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Landrieu. Thank you, Madam Chair.
    I have a long and very detailed report for the Committee. I 
would like to submit it to the record.
    Senator Boxer. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Landrieu. Thank you. I will summarize my remarks in 
the 5 minutes provided.
    I want to thank you, Madam Chair, for your continued focus 
on this very critical issue, not just for Louisiana and South 
Louisiana, but for the whole Gulf Coast and in many coastal 
areas in America. The fact that you, at the request of Senator 
Vitter and me, have continued this focus and others, is truly 
commendable. Thank you for your visits, thank you for flying 
over the wetlands, thank you for walking the levees, and that 
hands-on approach, I think, will be very valuable as we move 
forward.
    I want to speak, just for a moment, about the bigger 
picture, as Senator Vitter has outlined some of the specifics 
about the project before us. I want to say that discussing the 
status of hurricane protection and critical coastal restoration 
underway in South Louisiana is of extreme importance.
    This area, Madam Chair, is one of the most unique and 
fragile delta landscapes in the world, a landscape that drains 
over 40 percent of the North American continent. Positioned at 
the mouth of one of the largest and most powerful rivers in the 
world, Coastal Louisiana and the delta hold a tremendous bounty 
of natural and human resources. Our coast is a working coast 
that contributes 90 percent of America's off-shore energy 
production, 30 percent of overall oil and gas supply, and 30 
percent of its seafood in the lower 48 States. And that is not 
counting the navigation that comes into this as well.
    But the coast is in a state of crisis, losing 25 to 35 
square miles of wetlands per year and, as we pointed out a 
number of times on the maps, Madam Chair, putting dozens of 
cities, not just New Orleans, but dozens of cities, suburban 
areas, mid-size cities, and villages and agricultural 
communities at risk.
    This Committee bears an immense responsibility to the 
Nation as it relates to flood control and the ecosystem. I 
thank this Committee for its work, primarily through the WRDA 
bills, and we look forward to working with you on WRDA bills in 
the future.
    But as you said, Madam Chair, we have a long way to go. We 
are not nearly where we need to be. We have got to change our 
direction. We have a long way to go to ensure that the entire 
coast of Louisiana can thrive with safer cities, vibrant 
communities and more sustainable landscapes.
    Of particular concern today, as Senator Vitter pointed out, 
is the decision by the Corps of Engineers to proceed with a 
plan for storm surge protection that will neglect a critical 
piece of the puzzle, in my opinion.
    The Greater New Orleans Area averages one of the rainiest 
cities in the United States. The heaviest and most intense 
rainfalls occur during hurricane season. If Hurricane Katrina 
taught us anything, we must coordinate and manage our outer 
hurricane protection with the interior drainage and flood 
control of the city. If we fail to properly design the system, 
we will fail the people of New Orleans and the region again and 
likely repeat the same mistake that killed over 1,400 people in 
Louisiana and brought a major American city to the brink of 
collapse.
    I urge this Committee to take swift action to address the 
concerns of our State, the city of New Orleans, Jefferson 
Parish and the New Orleans Sewage and Water Board. You will 
hear from them later. But let me go on.
    While the subject today is focused on this project, I want 
to say that we need a new direction. The piecemeal approach 
that we have used for over the last really 40 or 50 years is 
what I now call a patch and pray model. Madam Chair, this model 
has failed our Nation. It failed the people of New Orleans and 
our region, it has failed South Louisiana. Our coastal 
communities can no longer afford the backlogs, the delays, the 
inefficient process of overlapping and confusing Federal 
authorization, and delayed appropriations.
    We must build a better model. We must move in a new 
direction. We must find a new way to focus our efforts at the 
Federal, State and local levels so we can construct the best 
water infrastructure and a more natural landscape that keeps 
communities safe and strong.
    I went in search of a new model, Madam Chair, and I believe 
that I found one, not in its identical form, but in The 
Netherlands, with EPA Administrator Lisa Jackson and members of 
your own staff. What we learned from the Dutch model, I believe 
we can learn a great deal.
    I will not go into the details. They suffered a 
catastrophic flood, but through reorganization, professional 
water management districts, by securing a permanent funding 
source and the gathering of political will and planning, Madam 
Chair, not just for 6 months or a year, but for decades. They 
are now planning almost for centuries. How refreshing. This is 
what our Government needs to aspire to.
    I know that my time is at end, but let me just----
    Senator Boxer. I will give you another minute to close.
    Senator Landrieu. Thank you.
    Let me just conclude with this. What I learned in The 
Netherlands is that people can live, safely and securely, below 
sea level and near the water. What a novel idea. Because many 
people in America, Madam Chair, including maybe some members of 
this Committee, do not believe that people can live safely 
below sea level and near the water. Well, we have a problem 
since we have 20 million or more people living below sea level 
in America, maybe more, it is a rough estimate, including in 
the Sacramento Valley, as well as 50 percent of the American 
people living within 50 miles of the coast. We need a new 
model.
    So that is what my testimony is about today. I am going to 
supply some more materials from the ongoing dialogs with the 
Dutch. The Dutch Deltaurus Institute, I believe, is the finest 
in the world. And I believe this Committee, under your 
leadership, Madam Chair, can provide the extraordinary 
leadership necessary to change direction, to seek a new model, 
a safe model, not just for Louisiana and the Gulf Coast, but 
for coastal communities throughout this Nation. I pledge to 
work with you and your Committee every step of the way in a 
bipartisan manner to accomplish this.
    Again, I thank you very, very much and look forward to the 
testimony and I will be staying to hear the specifics on the 
proposal Pump to the River today.
    Senator Boxer. Please join us right up here.
    At this time, we call to the table Brigadier General 
Michael Walsh, Commander, Division Engineer, Mississippi Valley 
Division, U.S. Army Corps. Welcome, Commander. I should say 
General. Welcome, General, and please read your statement or 
place it in the record and summarize it and then we will ask 
questions.

   STATEMENT OF BRIGADIER GENERAL MICHAEL WALSH, COMMANDER, 
DIVISION ENGINEER, MISSISSIPPI VALLEY DIVISION, U.S. ARMY CORPS 
                          OF ENGINEERS

    General Walsh. Thank you, Madam Chair and members of the 
Committee.
    I am Brigadier General Mike Walsh, Commander of the 
Mississippi Valley Division, U.S. Army Corps of Engineers, and 
also the President-Designee of the Mississippi River 
Commission.
    Thank you for this opportunity to discuss the Corps' 
ongoing reconstruction, restoration and improvement efforts on 
the Hurricane and Storm Damage Risk Reduction System for the 
Greater New Orleans area.
    Just a quick pause. We are engaged in multiple fronts, from 
supporting engineering work for our armed forces here in the 
United States as well as overseas, to water resource 
engineering from Canada to the Gulf Coast. We have recently 
been reminded by our sacrifice of some of our teammates when we 
lost three civilians during Memorial Day to an IED that hit one 
of our convoys in Fallujah. Our civilians and soldiers are 
engaged in harm's way today.
    The Federal projects for Greater New Orleans were 
extensively damaged, as you mentioned, by Hurricane Katrina in 
2005. With quick action from Congress to provide authority and 
appropriations, the Corps repaired and restored 220 miles of 
the system to the pre-Katrina level of protection.
    Our immediate operational goal is to provide risk reduction 
from hurricanes and storm surge that have a 1 percent chance of 
occurring in any given year by June 1, 2011. We are using the 
overall resources of the entire Mississippi Valley Division and 
other Corps expertise across the Nation to deliver, including 
the Engineer Research and Development Center, also known as 
ERDC. It is an award winning research facility recognized 
worldwide. We are also using folks from the Northwest Division, 
Walla Walla District, Kansas City District, Portland, North 
Atlantic Division, the Baltimore and Philadelphia Districts, 
the Great Lakes and Ohio River Division, the Chicago District, 
and many others.
    But even beyond this internal effort, we are also 
leveraging the knowledge and capabilities of our partners in 
industry, architectural firms, members of academia, and 
international counterparts to develop and apply state-of-the-
art engineering solutions.
    Our overarching goal is to provide a reliable Storm Surge 
Risk Reduction System that will deliver in compliance to 
authorities and appropriations to meet the needs of Southeast 
Louisiana. I plan to highlight a few to date and provide an 
overview of the ongoing efforts to restore the coastal 
ecosystem of Louisiana.
    More details are provided in my written testimony, Madam 
Chair, and I will be happy to answer questions afterwards.
    With regard to the Hurricane Storm Damage Risk Reduction 
System status, the risk reduction systems in the New Orleans 
area include about 350 miles of levees and floodwalls, 
navigable floodgates, canal closure structures, pump stations 
and other structures. The threat of a 100-year storm surge is 
being addressed through improvements to the perimeter system 
composed of the Lake Pontchartrain and Vicinity and the West 
Bank and Vicinity projects that protect major areas of 
Jefferson, Orleans, Plaquemines, St. Bernard and St. Charles 
parishes.
    There are also interior drainage systems that provide for 
the removal of rainfall that is being addressed through 
improvements on the Southeast Louisiana Urban Flood Damage 
Reduction Project, also known as SELA.
    Major features of the work include erecting surge 
protection barriers, building levees and floodwalls, replacing 
I-walls with stronger T-walls, adding scour protection, making 
repairs to existing pump stations, storm proofing pump 
stations, improving interior drainage, and restoring, 
completing and improving components of the existing perimeter 
protection system.
    The authorized and funded work also includes incorporating 
the Plaquemines Parish non-Federal levee system into the 
existing New Orleans to Venice hurricane risk reduction project 
and improving levees in Terrebonne Parish and work in Grand 
Isle as well.
    Today, we are more than one-third through with the 
construction of improvements. The system is stronger and more 
resilient than prior to Katrina or at any other time in 
history. Extensive modeling, lessons learned and risk informed 
processes have enhanced our design criteria for on-the-ground 
construction and the progress continues.
    The contracting effort to accomplish this massive 
construction project in a short timeframe is immense. We are 
maintaining our aggressive obligation schedule originally laid 
out in 2007, and we have awarded over 190 contracts and 
obligated $4.2 billion for the program.
    The majority of the funds are planned for obligation by the 
end of year 2009. Current obligations include over $1.2 billion 
directly to small and disadvantaged businesses. About 37 
percent of the obligations are going directly to small and 
disadvantaged businesses.
    With the assistance of the Office of the Federal 
Coordinator for the Gulf Coast Rebuilding and in close 
partnership with Governor Jindal, we have signed all three 
major partnership agreements with the State of Louisiana 
necessary to proceed with construction.
    We have also signed all deferred payment agreements with 
the State of Louisiana that extend the State's payments for 
cost-shared portions of the work over a 30-year period, 
supporting the policy announced by the Federal Government in 
the State of Louisiana in August 2008.
    We have implemented a robust independent external peer 
review of the Hurricane Storm Damage Risk Reduction System. 
This includes the overall design criteria and their application 
during design and construction, the armoring manual and the 
quality management plan. The most complex projects will receive 
additional peer review during construction and the design 
process.
    Recognizing the need and the fundamental responsibility to 
reach out to stakeholders and to inform our decisionmaking with 
the public's input, the Corps has hosted more than 110 public 
meetings in Jefferson, Orleans, Plaquemines, St. Bernard and 
St. Charles parishes to listen and to consider public comment 
and include critical information into the development of the 
system.
    Last year during Hurricanes Gustav and Ike, we coordinated 
with the Sewerage and Water Board of New Orleans to close the 
gates of the Interim Closure Structure at the outfall canals of 
Lake Pontchartrain, and then pumped the storm water out of the 
canals. The 12-foot surge from Hurricane Gustav tested the 
system and the Nation watched as waves overlapped the flood 
walls on the Inner Harbor Navigation Canal. The system 
performed as designed. No damages to the floodwalls occurred 
due to the new T-wall designs and the armoring and splash pads 
installed at the existing I-walls.
    In regard to other efforts in addition to the previously 
described ecosystem restoration, higher levels of storm risk 
reduction measures are also being studied in coastal Louisiana 
as part of the authorized Louisiana Coastal Area Program and 
the ongoing Louisiana Coastal Protection and Restoration Study.
    The ecosystem restoration activities are conducted under 
multiple authorities with funding from various sources and 
several different cost-sharing formulas. They include the 
Coastal Wetlands Planning, Protection and Restoration Act, also 
known as CWPPRA, the Louisiana Coastal Area ecosystem 
restoration program, a related effort to restore wetlands 
affected by the Mississippi River Gulf Outlet, and the science 
that is needed to support all of these related restoration 
efforts.
    The Louisiana Coastal Protection and Restoration Final 
Technical Report is currently undergoing agency and public 
review and is scheduled to be provided to the Assistant 
Secretary of the Army in August 2009. This report contains an 
analysis of Category 5 risk reduction and identifies an array 
of viable comprehensive plans that include structural, non-
structural and coastal restoration measures. The report also 
establishes the opportunity to move forward on report 
components for our State partner, the Coastal Protection and 
Restoration Authority.
    In addition, regarding the Mississippi River Gulf Outlet, 
the comprehensive plan for deauthorizing the deep draft 
navigation was completed in 2008. The MRGO channel was 
officially closed to all navigation on April 22, 2009 and 
construction crews are in the final stages of placing over 
300,000 tons of rock to complete the MRGO closure structure by 
July of this year.
    We are in the process of constructing an 18,500-foot long 
rock dike along the bank of the eastern lobe of Lake Borgne to 
help maintain the lake as a separate ecosystem. A study to 
identify the best way to restore wetlands affected by the MRGO 
is also ongoing. Feasibility scoping meetings for this study 
were held in April and May of this year, and we plan to release 
the draft to public comment and external review by May 2010.
    Madam Chair, this concludes my testimony and I thank you 
for allowing me to present the ongoing efforts of the U.S. Army 
Corps of Engineers in the New Orleans area. It is my pleasure 
to serve the Army and the Nation. I am prepared to take your 
questions.
    [The prepared statement of General Walsh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
     
    
    Senator Boxer. Thank you, General.
    General, I am going to ask you a big favor. If you could, 
after we have asked you our questions, is it possible for you 
to stay and hear the panel? Senator Landrieu had suggested that 
would be a good idea. Is that possible?
    General Walsh. Yes, Madam Chair.
    Senator Boxer. Thank you so much. Because I think it is 
important.
    General, how long have you been on this particular beat?
    General Walsh. I took over about 14 months ago. Previous to 
that, I was General Petraeus' engineer in Iraq.
    Senator Boxer. Oh, boy. So you took over 14 months ago. And 
how long will this assignment run, if it runs its normal 
course?
    General Walsh. I work at the pleasure of the Chief, Ma'am.
    Senator Boxer. So, you never know.
    General Walsh. Yes, Ma'am.
    Senator Boxer. The reason I ask this is, I found in my own 
State, when I work on major flood control projects, one of the 
problems is we have great people and then you look over your 
shoulder, they have the whole history and they are gone. So, I 
mean I am hoping for some stability here because it makes it 
really difficult. That is not in your control, but let the 
record reflect that it is a concern that I have in any of these 
big projects. I think we really need to have consistency.
    General, while the Corps has made significant progress in 
rebuilding the hurricane protection system of New Orleans, 
important issues need to be resolved. As we have heard today, 
local interests, we are going to hear that, object, and so do 
my two colleagues here, object to the Corps' current plans for 
the replacement of pumps in the New Orleans outfall canal known 
as Option 1. The Corps claims other options will need 
additional study and authorization.
    Could you describe to us why the Corps is proceeding with 
Option 1 and what actions the Corps will take to determine if 
other options are feasible and to determine which option 
provides the greatest protection for New Orleans?
    General Walsh. Ma'am, we have put together a technical 
report that we submitted to Congress in 2007 and we had put 
together a team of both locals and people from academia that 
laid out a number of different options on how to address the 
closure structure. They came up with a number of options for us 
to look at. We have looked at them and there are three options 
that currently----
    Senator Boxer. I am just asking you, why did you pick 
Option 1 and, in the face of all the disagreement, it seems to 
me from the two Senators here and, I do not know about the 
congressional delegation, but it looks unanimous. Plus, the 
community. Do not give the whole history. Explain to me why you 
picked Option 1. Is it because it was the cheapest?
    General Walsh. No, Ma'am----
    Senator Boxer. So what reason?
    General Walsh. We are looking at Option 1 as it meets the 
intent of the authorization and looking at reducing the risk 
due to storm surges.
    Senator Boxer. OK. Well, I am going to let my two 
colleagues go forward on this in a minute. Not yet, David. 
David's ready to go.
    [Laughter.]
    Senator Boxer. Just wait. I want to ask a couple of other 
questions. And I am going to give my colleagues more time than 
I have taken because they are the true experts here.
    General Walsh, following the hurricanes of 2005, there was 
a recognition that coastal wetlands work in tandem with levees 
and other infrastructure to provide hurricane protection. There 
was a need to do that. Congress directed the Corps to complete 
a study of how to provide Category 5 hurricane protection that 
includes but structural elements and wetlands restoration. This 
study has not been submitted to Congress, as required. Is this 
the study that is coming to us in August 2009 that you referred 
to?
    General Walsh. Ma'am, we will be submitting it to the 
Assistant Secretary of the Army for Civil Works in August 2009.
    Senator Boxer. When it is going to come here?
    General Walsh. I do not know if I can answer that, Ma'am.
    Senator Boxer. Well, we need an answer because this is a 
very, very critical report dealing with the coastal wetlands. 
So, who is going to make the decision as to when we get to see 
that report?
    General Walsh. The report is being reviewed now by the 
public and by the National Academy of Sciences. We will be 
addressing those comments and sending it back through my office 
and the Chief of Engineers' Office to make sure of its 
technical completeness and then we will be sending it over to 
the Assistant Secretary.
    Senator Boxer. OK. Now, is that the report that you 
referred to when you said we will see a report in 2009, or that 
someone will get a report. Was that the report that you were 
referring to?
    General Walsh. Yes, Ma'am.
    Senator Boxer. OK. Well, why has it been delayed?
    General Walsh. Ma'am, The LACPR----
    Senator Boxer. Do me a favor. Could you say Senator instead 
of Ma'am?
    General Walsh. Yes, Senator.
    Senator Boxer. It is just a thing. I worked so hard to get 
that title, so I would appreciate it. Thank you.
    General Walsh. Yes, Senator. The LACPR is an unprecedented 
and complex study in looking at that much of a coastal area. 
What we looked at was breaking down the 26 coastal parishes 
into five planning units, and we spent a large amount of time 
working with the public and academia on coming up with 
solutions in those five areas. We have gone through one 
National Academy of Science review of that draft report and we 
continue to submit and work with the public and make some 
changes to that report. We have completed that report and left 
about four or five options in each one of the five planning 
units on the way to move forward.
    Senator Boxer. Well, I can just say, these deadlines that 
are asked of you are not just pulled out of the air. There are 
reasons for it. Do you know how long it takes us to make a case 
to our colleagues that we need to take action? We need these 
reports or we are just going to lose time, time, time.
    General Walsh, my last question. I am sure you are happy to 
know. While the Corps has made great progress, I give you that 
for sure, on rebuilding much of the hurricane protection system 
in New Orleans, progress has been significantly slower in 
coastal Louisiana restoration projects that were authorized in 
WRDA, the Water Resources Development Act of 2007. We had 
important milestones required in WRDA, such as establishment of 
a task force to guide restoration and completion of a 
comprehensive restoration plan. That has not begun. Why are 
those projects not moving forward more rapidly and what needs 
to be done to expedite these projects?
    General Walsh. Senator, I think we are talking about LCA 
and we just signed the final four partnership agreement letters 
with the State. We are proceeding forward and should have 
those, at least six of those LCA reports completed by December 
2010.
    Senator Boxer. And you will have that task force appointed 
to guide the restoration? That was a milestone that we laid 
out. We said an establishment of a task force to guide 
restoration and completion of a comprehensive restoration plan. 
Our understanding is that you have not done that, and it is 
2009. We passed this is 2007.
    General Walsh. The recommendation for what to do with that 
task force has been submitted through the Chief's Office and is 
at the Assistant Secretary's Office----
    Senator Boxer. Well, it looks like we are going to have to 
go up a little higher----
    General Walsh. In the timeframe, we have put together a 
science and technology board and we have hired a science and 
technology director to help look at some of the science needed 
to inform those projects as they come due.
    Senator Boxer. Well, we are going to stay on it because 
when we pass a law here we expect the law to be followed. This 
is not a blame thing. It is just that we need to move forward. 
We cannot wait until another disaster strikes. You know, if 
anything I have learned from these two Senators here, and I 
know from my own State of California and Sacramento, you know, 
we do not control Mother Nature. We are trying to, but we had 
better do a better job because no one in this Country wants to 
see so many thousands and hundreds and millions of people be 
dislocated.
    So, here is the thing. I am going to give Senator Vitter 12 
minutes. I am going to give Senator Landrieu 12 minutes. So, 
they can go unimpeded for that long.
    General Walsh. Thank you, Madam Chair.
    Senator Vitter. Thanks, Madam Chair, and thank you again 
General for your leadership.
    As I said in my opening statement, I want to focus a lot on 
the outfall canal issues and Pump to the River, which is 
critically important to getting this fixed right.
    Now, I just want to point out. This is greater New Orleans. 
These are the three outfall canals we are talking about. These 
three stars are the breaches in the outfall canals that caused 
most of the catastrophic flooding east of the Industrial Canal.
    Now, General, those walls of the outfall canals were part 
of a Federal Corps-led project, correct?
    General Walsh. Some of those walls were designed and 
constructed by the Corps of Engineers and some were done by the 
local Levee Board.
    Senator Vitter. They were all, either originally or made 
part of, a Federal Corps project, right?
    General Walsh. Yes, Senator.
    Senator Vitter. OK. With about a 70 Federal, 30 local cost 
split. Correct?
    General Walsh. Yes, Senator.
    Senator Vitter. Now, where those breaches occurred, the 
walls have obviously been repaired, correct?
    General Walsh. Yes, sir.
    Senator Vitter. And a completely new, better design was 
used. Is that right?
    General Walsh. That is right.
    Senator Vitter. Where there were not breaches, the walls 
have not been redesigned or rebuilt. Correct?
    General Walsh. That is correct.
    Senator Vitter. So, wherever there is not a breach, which 
is 99 percent of the walls we are talking about, there is the 
same old faulty design that led to the breaches. Is that fair 
to say?
    General Walsh. Design of those walls was based upon a 
standard hurricane coming through. Hurricane Katrina was much 
larger than what the walls were designed for and so what you 
see was the original designs are showing at about 12 to 14 feet 
on what those walls were originally designed for on a standard 
hurricane. We are now looking at something larger than a 
standard hurricane and, therefore, you hear the discussion of a 
water elevation that we have agreed to with the Sewerage and 
Water Board as to where we should allow the water to rise.
    Senator Vitter. OK. So, those walls where it did not breach 
are not being redesigned or not being rebuilt under Option 1. 
Is that correct?
    General Walsh. Right now, Senator, we have an engineer 
study going on and looking at the walls in all three canals 
and----
    Senator Vitter. But under Option 1, which you want to move 
forward with, they would not be redesigned, they would not be 
rebuilt?
    General Walsh. That is right. Yes, sir.
    Senator Vitter. They would be under Option 2?
    General Walsh. They would be redesigned, sir.
    Senator Vitter. And I assume rebuilt? We would not just 
redesign them? We would build them that way?
    General Walsh. Yes, sir.
    Senator Vitter. OK. So, under Option 1, the solution is to 
lower the water level allowed in the canal to a lower ``safe 
water level.'' Is that right?
    General Walsh. Right now, as we have worked with the 
Sewerage and Water Board, certainly with Gustav, they are 
evacuating the rainwater out of the city, they will put it into 
the canal, and it will run freely into Lake Pontchartrain. And 
so, those few times when the water level of the lake gets high 
enough, we will be working with the Sewerage and Water Board, 
we will close the gates and, as they continue to put water into 
the outlets, we will pump that into Lake Pontchartrain.
    Senator Vitter. And you will monitor the water so that it 
is below this new ``safe water level.'' Correct?
    General Walsh. That is correct. And we worked very closely 
with the Sewerage and Water Board. We had our canal captains 
work very closely with the very professional staff that they 
have at the Sewerage and Water Board during Gustav and----
    Senator Vitter. In the case of the 17th Street Canal, that 
``safe water level'' is seven or eight feet below the top of 
the wall. Is that correct?
    General Walsh. It is seven or eight feet below the top of 
the wall. Yes, sir.
    Senator Vitter. Now, General, just a real sort of common 
sense question. Let us say you hired a carpenter to build a 
bookcase for your home, a tall bookcase, and he builds it and 
moves it into your home. It looked beautiful and you started 
putting books on it. Once you put books above, say, the fourth 
shelf from the floor, it started careening over on you and you 
could not do that. So you called the carpenter up and explained 
the problem and he came into your home and took measurements 
and looked at the design and called in experts. Then a week 
later he said we figured out what is wrong and we figured out 
the solution, and the solution is do not put any books above 
the fourth shelf from the floor. Would that be a satisfying 
answer to you?
    General Walsh. Sir, I would be looking at what the design 
was. Certainly, the 12-foot wall was built and designed off of 
a standard hurricane scenario. What happened was a much larger 
scenario than what we looked at. So during the process, with 
IPET and others, we looked at multiple, thousands of 
hurricanes, that could come into that particular area, which 
would require us to look at that design and reestablish what 
the safe water levels----
    Senator Vitter. Let me just underscore. The safe level is 
seven or eight feet below the top of the wall. Clearly, that is 
diminished capacity from the original design. Clearly, you all 
did not build a wall eight feet higher than you needed to for 
no good reason, right?
    General Walsh. Yes, sir, it was built toward the standard 
hurricane design and not to what we learned after Katrina. And 
certainly we would want to use what we learned from Katrina. 
Again, to use an analogy, it would be taking a bag that could 
hold 12 pounds of apples and then putting 15 in it. What we are 
looking for is not putting 12 into that bag. We are looking at 
putting eight into that bag because we now know that bag can 
only hold eight pounds of apples.
    Senator Vitter. Your August 30, 2007 report to Congress 
asked you to look at these different options and report on 
them. It concluded ``Option 2 is generally more technically 
advantageous and may be more effective operationally over 
Option 1 because it would have greater reliability and further 
reduces risk of flooding.''
    And more recently, just on May 20, 2009, Chris Accardo, 
your Chief of Operations in New Orleans, at a public meeting 
said very forthrightly at the public meeting, ``So when you 
compare Option 1 to Option 2, this is a no brainer, folks. I 
heard one politician after another come up and say they want 
Option 2 over Option 1. Well, that is obvious. We all want 
Option 2 over Option 1.''
    So the Corps, in two different instances, clearly has said 
Option 2 and 2a is better than Option 1. What do we tell the 
residents in the area why you want to move forward with Option 
1?
    General Walsh. Senator, in the same report it shows that 
Option 1 could be more advantageous considering the engineering 
challenge and the construction complexities of Option 2.
    Senator Vitter. OK, to me that means it is cheaper. What am 
I missing?
    General Walsh. What I think it means to me is that it meets 
the criteria in regards to providing perimeter protection to 
what we learned from Katrina.
    Senator Vitter. Do Options 2 and 2a not meet that criteria, 
provide that protection?
    General Walsh. Neither 2 nor 2a provide any additional 
protection from surge.
    Senator Vitter. But they provide a heck of a lot more 
protection from flooding.
    General Walsh. From interior drainage, you may be able to 
get some more benefits out of 2 or 2a. What we are looking at 
from the authorizations and the funding that is set aside for 
it is for storm surge.
    Senator Vitter. Well, I just point out that the initial 
program included the canal walls and that was a Federal program 
under Corps leadership and that was about both. So you cannot 
just ignore one whole side of the equation now.
    General Walsh. And that is why, sir, we established safe 
water elevations in working with our partners so that as they 
evacuate the water out of the city from normal rain events, it 
will pump directly into Lake Pontchartrain.
    Senator Vitter. Now, General, as you know, one of the 
things you all are arguing is that Option 2 and 2a are not 
authorized. I never understood this. I continue not to 
understand this. This is authorization language, the language 
and the only language that Congress passed. And it says the 
relevant part is used to modify the 17th Street, Orleans Avenue 
and London Avenue drainage canals and install pumps and closure 
structures at or near the lakefront. Why does that not describe 
2 as well as it describes 1?
    General Walsh. Sir, I believe we have the authority to do 
the study to see if that is a feasible option, but we are not 
funded to do the study.
    Senator Vitter. This is the authorization language to do 
it. This is the authorization language to actually do the 
permanent fix. My question is: Does this language not cover 
Option 2 just as surely as it covers Option 1?
    General Walsh. We believe that it covers a study but the 
study is not funded.
    Senator Vitter. OK, can you point to the language that says 
that? Because I am missing it. I have read this about 100 times 
and I do not know what you are talking about in terms of study 
does not cover Option 2. I mean, the language is pretty simple 
and I do not understand why it does not cover Option 2.
    General Walsh. Yes, sir, I would have to answer that for 
the record. I am certainly not trained as a lawyer to give you 
that background.
    Senator Vitter. OK. Well, I just point out that, in fact, I 
believe this language covers Option 2 more clearly than it 
covers Option 1 because it says you can modify the drainage 
canal. Right? Option 1 does not modify the drainage canals. You 
just said that a few minutes ago. How does Option 1 modify the 
drainage canals?
    General Walsh. Option 1 is looking at perimeter protection, 
sir.
    Senator Vitter. So, is it not correct that Option 1 does 
not modify the drainage canals?
    General Walsh. Option 1, at this point, does not modify the 
canal, but as I----
    Senator Vitter. Option 2 does modify the drainage canals. 
Correct?
    General Walsh. Option 2 does modify the drainage canal.
    Senator Vitter. The authorization language says modify the 
canals. Now to me, this fits Option 2 better than it fits 
Option 1 because of that word. What am I missing?
    General Walsh. Sir, I would have to have the legal counsel 
give you that discussion.
    Senator Vitter. Well they have and I still do not 
understand it. I went to 3 years of law school and maybe I need 
to go back. But it is useful to focus on the plain language 
and, again, modify is not even a part of Option 1.
    Senator Boxer. Senator Landrieu.
    Senator Landrieu. Thank you. I would like to follow up on 
that excellent line of questioning by Senator Vitter because it 
is not just puzzling, but it is aggravating, frustrating and 
frightening, actually, General, to the people that we represent 
that whether you are a lawyer or not, this is written in pretty 
plain vanilla English. And we are having a hard time 
understanding, as you can just see, why the language that we 
have read and re-read continues to be blocked by the Corps of 
Engineers when clearly the language says that Option 2 is 
legal.
    Now, I think Senator Vitter, in his line of questioning, 
proved that point or as authorized. But let me ask you this 
question. What amount of study funding do you think is standing 
between you and doing Option 2? What is the general amount of 
study funding?
    General Walsh. To study Option 2 or 2a would be about $15.8 
million.
    Senator Landrieu. $15 million to do a study?
    General Walsh. That is correct.
    Senator Landrieu. OK. Now, we are spending $14 billion on a 
project. So, relatively speaking, $15 million would not be that 
much money. But I think that people would argue greatly with 
you that it would cost that much money. But, even if it did, 
even if it did cost $15 million, in light of the billions of 
dollars that we are spending, it might be wise to conduct such 
a study, particularly because we think we have already 
authorized a different approach. Would you agree to that?
    General Walsh. No, Ma'am. I believe that the funding that 
was set aside by Congress was to look at surge----
    Senator Landrieu. I did not ask you that. I said, would you 
oppose additional funding? Let us not get focused on whether it 
is $5 million, or $10 million or $15 million to do the study. 
Would you or the Corps oppose an additional study if it was 
required to try to reach a better option?
    General Walsh. Senator, if it was funded by Congress, we 
would proceed with the study.
    Senator Landrieu. OK. I want to say that I believe the 
language is very clear. And I believe that we have already 
authorized you to choose Option 2. I believe that is very 
clear. But if it is not, Madam Chair, one way forward if it is 
determined ultimately that it is not, one way forward is to 
reauthorize a study, fund it and move past this issue.
    Let me get to the heart of the matter. Senator Vitter used 
the bookcase analogy. I would like to use a brake analogy on an 
automobile. If my family and friends were in a fatal automobile 
accident and it was brought in for review, the automobile, and 
it was told to me that the reason is that the brake system did 
not work, there was something wrong with it, and then the 
company proceeded to install the same brake system in the 
automobile, do you think that I would let one member of my 
family step in that automobile again? I do not think so.
    But that is what you are asking the people of Louisiana and 
South Louisiana. You are just fixing the same system that broke 
in the first place, General. And you are only fixing the parts 
of the canal that broke. There are other parts of the canal 
that were basically at the same level. And that is what has us 
angry and more than befuddled.
    Let me ask you to clarify this. This Committee, as you 
know, that you are testifying before, is responsible for 
climate change issues and regardless of the debate about what 
is causing it, we all know storms are going to intensify and 
levels of sea level are rising. When you said that the people 
of New Orleans were now building a system for the region and 
Jefferson, St. Bernard, Plaquemines and Southeast Louisiana, 
under the system that you plan to build with the money that we 
have given you, there is a 1 percent chance per year. What does 
that mean for someone's lifetime? Can you translate that to 
lifetime, assuming someone lives 80 years? Is that an 80 
percent probability that they are going to be, in their 
lifetime, catastrophically--what is the 1 percent a year? 
Explain that in a lifetime for me.
    General Walsh. Yes, Ma'am, if I could just go back to the 
brake analogy and then I will get to that. Certainly, what we 
have put together in the past was parallel protection for the 
city. What we are looking at now is perimeter protection for 
the city. So, we are putting in a different type of brake 
system to follow the same analogy.
    Senator Landrieu. Well, I do not necessarily agree with 
that, a different kind of brake system. You are putting in the 
same canals. You are basically building, because you testified 
that you are not modifying. You have testified that you are 
basically constructing the same system and you are just hoping 
that the coordination that you might put into place with the 
Sewer and Water Board, or in the process of putting into place, 
works. But if you backed up from it, talk about this 1 percent 
chance in a year. What comfort does that give the people of our 
region, that there will be no catastrophic flooding in 
someone's lifetime?
    General Walsh. Yes, Ma'am, we are putting closures out in 
front of the canals which were not in place prior to--I do not 
know what an 80-year plan is, but I do know roughly what it is 
on a 30-year mortgage and you have a 25 percent chance of 
flooding in a 30-year mortgage. It is 1 percent chance of 
flooding in any given year.
    Senator Landrieu. It is a 25 percent chance on a 30-year 
mortgage. Now, you know that people in St. Bernard Parish have 
lost their homes, in some instances three times in the last 40 
years. So, I am not sure that standard is necessarily accurate 
or something that we would agree with that you have outlined. 
But the point is that we want to build a better, stronger 
system with integrated flood control, not just on our canals, 
but the interior drainage of this low-lying area. And the 
coastal restoration that is necessary to protect people from 
catastrophic flooding.
    So, you have testified that the language for the option 
that we choose is language that will modify according to what 
our language says in this document here, and you have testified 
that you would not oppose the funding of a study if it came to 
that issue. Is that correct?
    General Walsh. That is correct, Ma'am.
    Senator Landrieu. Thank you.
    General Walsh. And as we proceed with Option 1, we are 
looking at putting in adaptable features, a heavier foundation, 
a lower sill, so that if there is an opportunity for Congress 
to do something in the future, it will not frustrate those 
changes in the future.
    Senator Landrieu. Let me just, as I have a few minutes 
left, I just want to go over this particular point again 
because this has been what has frustrated our delegation. Your 
staff has indicated that the Corps lacks the authorization to 
implement Options 2 and 2a. Would you specify the exact 
legislative language that is missing?
    General Walsh. Ma'am, I will have to add that for the 
record and have our folks who work on legislative language 
submit that.
    Senator Landrieu. OK. Thank you, Madam Chair.
    Senator Boxer. Thank you. Before I take it back to Senator 
Vitter, I have given him another 5 minutes and you, Senator 
Landrieu if you want additional time. Senator Udall, would you 
like to make a comment or two?
    Senator Udall. Thank you, Madam Chair, very much. I just 
wanted to come by and support my colleague, Senator Landrieu, 
on her efforts here. I know that she is very interested in 
seeing that restoration is done in such a way that it is 
environmentally sensitive and takes into consideration all of 
the industries in the area.
    I toured this area when I was in the House with 
Representative Toussaint, who is very familiar with the 
problems down there. We spent several days, flew over the area 
in a helicopter and got to see things on the ground also. So I 
know that we have some real, real serious issues.
    I have had several visits with my good friend, Mary 
Landrieu, and I know she takes this very seriously. General 
Walsh, I hope that I can be here for all of your testimony but 
I have got a couple of other things to do. I hope that I will 
be able to get back. But I wanted to say I think this is an 
important hearing and it is something that I know that she has 
worked hard at. And I think part of this has to do, Senator 
Landrieu, does it not, with your trip that you just took to The 
Netherlands with the Staff Director, trying to collect 
information and see what the best way is to tackle this 
problem, looking for solutions that are out there.
    So with that, thank you, Madam Chair.
    Senator Landrieu. Well, I appreciate that. And I want to 
say, not to take up too much more time, but the attention that 
members of this Committee, Madam Chair, have given, both 
Democrats and Republicans as well, has been so encouraging to 
the people of our State because we do not think that this is 
just about Louisiana. We think this is about looking for a new 
engineering model that will work for the whole Country, of 
which we happen to be basically the canaries in the mine at 
this particular point.
    It is only going to be a matter of time until a major storm 
hits Florida or some catastrophic flooding occurs in California 
and I am waiting for the Corps of Engineers to get to the point 
where they admit that the model that we have, Senator, is not 
sufficient in any way to protect people from catastrophic 
flooding in this Nation. Thank you for being here.
    Senator Boxer. OK, so we are going to close this panel by 
asking Senator Vitter to ask his remaining questions. Then we 
will move on and hear from the people of New Orleans.
    Senator Vitter. Thanks, Madam Chair.
    General, you said in your statement that all of your 
important work in South Louisiana has gone through extensive 
peer review and similar review. Has the analysis of Option 1 
versus Option 2 and 2a gone through any sort of outside peer 
review?
    General Walsh. Yes, sir. As we were putting together the 
report that we submitted to Congress in 2007, it goes through 
the evaluation process and the methods that we are looking at 
and getting multiple comments from many different people. Then 
we put together a senior review panel that looked at the 
documents in 2007. That senior peer review had members not only 
from the Corps of Engineers, but we had members from academia 
and six members from private architect-engineer firms. Many 
folks provided input to this report.
    Senator Vitter. So, presumably, they validated the 
comparative analysis I referenced a few minutes ago?
    General Walsh. As I understand your question, yes. Yes, 
sir.
    Senator Vitter. OK. Go back to this frustrating 
authorization, General. You all are now modifying Option 1 to 
lower the sills, to do other things that would be required if 
Option 2 is built in the future. Correct?
    General Walsh. We are reviewing that, yes, sir.
    Senator Vitter. The Corps has told me that is the new 
Option 1, that Option 1 is modified for that. My question is 
simple. If you do not have the authority to do all of Option 2, 
how do you have authority to do part of Option 2 which is 
modifying the sills and doing what you are talking about doing 
to be consistent with Option 2? Because that is not necessary 
for Option 1.
    General Walsh. Sir, what we are looking at is for Option 1 
to protect the city from perimeter protection and surge.
    Senator Vitter. Right, but the modifications I am talking 
about would only be required for Option 2. So how do you not 
have authority for Option 2, but have authority to do that, 
which is part of Option 2?
    General Walsh. Sir, the Chief has some minor discretionary 
authority to make those changes.
    Senator Vitter. OK. To me, that means because you all can 
do what you want. In terms of the dollars, you have also said 
you have only been given the dollars to do Option 1. Did 
Congress not give you the dollars, the Corps and the then Bush 
administration, asked for?
    General Walsh. Yes, sir.
    Senator Vitter. And the Corps did not say, Congress you 
have a choice. Option 1 costs this much. Option 2 costs this 
much. The Corps said, we want these dollars.
    General Walsh. What we were looking for is to provide 
perimeter protection again surge. Yes, sir.
    Senator Vitter. I am just pointing out that when you say 
you only have the money to do Option 1, it is because you only 
asked for the money to do Option 1. There was no discussion 
with this Committee or Congress about those choices. Certainly, 
serving on this Committee, if I had understood at the time that 
your position 2 years later would be this authorization, this 
money, excludes Option 2, I would have thrown a fit. But there 
was no discussion about that. I just put that for the record.
    Finally, Pump to the River is a very important component of 
all of this. That is the a of 2a. It would send a lot of 
important drainage that goes into the 17th Street Canal in a 
whole other direction so we do not impact and further stress 
the 17th Street Canal. Is that a fair statement? A fair 
description?
    General Walsh. As I understand it, yes, Senator.
    Senator Vitter. Well, this is a statement, not a question. 
I think that is very reasonable, given that we are artificially 
lowering the capacity of the outfall canals with this safe 
water level. We are saying that the water cannot be allowed to 
get above seven feet lower than the top of the wall, which is 
way lower than what it was built for. So, would it not be 
reasonable, in light of that, to build a supplementary project 
like Pump to the River that sends some volume of water in 
another direction to compensate for that lowering of capacity?
    General Walsh. Right now, Senator, the Sewerage and Water 
Board pumps the water out of the city for rain events and 
tropical events. We do not need to close the gates and provide 
perimeter protection unless Lake Pontchartrain gets within one 
foot of the safe water elevation. That did happen in Gustav and 
Ike, and we sent our canal captains to work with them and we 
were able to provide just the right amount, or more than the 
right amount, of coordination to make that happen.
    Senator Vitter. General, let me just end with a statement. 
Again, my big overarching concern is that we could be repeating 
a grave mistake of history.
    After Hurricane Betsy, all of us moved forward and built a 
protection system that was the cheapest but not the best. And 
we disregarded the Wrigley's--[phonetically]-protection system 
that would have prevented water from coming into the lake and 
we built this system instead. I do not want to repeat that 
mistake of building something because it is cheaper, but not 
better.
    And again, in this regard, Chris Accardo of the Corps 
agrees with me. He said at that May 20, 2009 public hearing, 
referring to that previous episode in the 1950s and 1960s, 
``That is why you do not have it place today. And if you would 
have had it in place for Katrina, you would not have had the 
mess that we have.'' So, that is what I want to avoid for the 
future.
    Thank you, Madam Chair.
    Senator Boxer. OK. Well, Senator Vitter's questioning has 
brought some other questions to our Senator Landrieu. So, why 
do you not take 5 minutes?
    Senator Landrieu. Thank you. It will really only be 2 
minutes.
    Are you aware that in expert testimony before the Courts, 
General, on the issue of damage related to the storm, that it 
has been identified that there was $40 billion worth of damage 
caused by the failure of this system?
    General Walsh. I am not familiar with that.
    Senator Landrieu. Well, the record will reflect that, and 
perhaps it may be in the testimony, but $40 billion of 
additional damage was created by the failure of this levee 
system. So, when Senator Vitter and I keep pressing for the 
best project, this is why. We cannot afford another $40 billion 
or $50 billion or $80 billion mistake. Pinching pennies to be 
penny wise but pound foolish is the point here.
    I just want to ask the final question. You say you talked 
with the Sewage and Water Board. We are at a point, middle of 
the storm, storm surge, perimeter protection, the gates come 
down. What amount of flooding do you think is acceptable in the 
city?
    Have you talked with the Sewage and Water Board about the 
rain event? How much rain can be absorbed when your gates are 
closed for your perimeter? Do you know that? Can you testify on 
that to the record? Is it two feet in Broadmoor or is it five 
feet in Broadmoor? Or is it three feet in Mid-City? How much 
rain can we absorb with your gates closed if the storm sits 
over the city as it has not done in either Katrina or Gustav 
but it has done in other lifetime in other storms?
    General Walsh. Senator, the pumps are built so they can 
handle the water as the city pumps it out.
    Senator Landrieu. Currently. At any level of rainfall?
    General Walsh. Yes, Ma'am.
    Senator Landrieu. OK. I am looking forward to the 
testimony, Madam Chair, of the next panel because that is the 
issue here. With the canals closed under this plan and a storm 
sitting over the city dropping heavy rainfall, Orleans and 
Jefferson, which is about 1 million people roughly, close to 1 
million people, are at risk of catastrophic flooding not from 
the perimeter, but from the rain internal flooding, which is 
what we are trying to point out here in this testimony.
    I thank the Chair. She has been very gracious. And thank 
you, General, for agreeing to stay because I think it is 
important for you to hear this next panel.
    Senator Boxer. General, I want to thank you. I know this 
has not been very pleasant but, again, I have to say the Corps 
works so hard. But I get frustrated sometimes because you have 
a turnover and one individual finally learns everything, like 
today you learned about the $40 billion in damages. That is an 
important piece of information because that should drive what 
we spend to fix this.
    It does not make any sense, it seems to me, to choose an 
option that is like $1 billion instead of $2 billion, I am just 
throwing a number out, when you could spend $1 billion and have 
$40 billion worth of damages and spend $2 billion and not have 
any damage. I am just pointing this out.
    And I think my colleagues have used very important 
examples, the carpenter example and the brakes example. You 
know, fool me once, OK, but do not fool us twice here. I do not 
mean you personally. I mean the Corps as an institution has got 
to work with us. And I just would beg you to, at some point, 
think about this. We need to know if you are picking, and I 
believe you are picking, an option because it is less money. I 
do believe that. I really do believe that.
    We are all in a terrible bind here because we have so much 
of a problem with our budget, with our debt. But we have to be 
honest. Look, if you told us that and we decided that is all we 
can do, then it is on us. But it is so hard for me to accept 
the fact that this option, in light of what I have been told by 
my colleagues who have nothing to gain by having to push us for 
more money, this is their worst nightmare in the world. They 
have had to push so hard. They do not want to.
    But if they, and the next panel, and again you are very 
gracious to stay, if they are really clear on it, all I can say 
is do not rush to fund an inadequate project. I am concerned. 
Senator Vitter has said you may be in the process of signing 
some agreements to move forward with this. That is a terrible 
idea.
    I would think that you would think enough of this 
Committee, these colleagues here, and the community, as well as 
the congressionals, to at least take a pause here and take 
another look. If I have a message for you, even before hearing 
the panel, it is that. Do not rush to undertake the expenditure 
of a lot of funds that might not be adequate for the task.
    So, I know it has not been a very pleasant experience for 
you but I am appreciative of your time and appreciative that 
you will stay.
    With that, we will call up our panel. Jeff Jacobs, Scholar, 
National Research Council, Committee on New Orleans Regional 
Hurricane Protection. Steven Peyronnin, I know I did not say 
that right. Did say that badly? How do I pronounce it? 
Executive Director, Coalition to Restore Coastal Louisiana. Dr. 
Robert Twilley, Vice Chancellor of Research and Economic 
Development, Professor, Department of Oceanography and Coastal 
Sciences, Louisiana State University. Joseph Rault, President, 
Rault Resources Group of New Orleans, Executive Committee Board 
Member, Pump to the River. Thomas L. Jackson, Commissioner and 
Past President, Southeast Louisiana Flood Protection 
Authority--East, retired civil engineer and Past National 
President of the American Society of Civil Engineers.
    Let me just say, this is quite an amazing panel. Because we 
went so long with our first panel, but I think, I am sure you 
appreciate the fact that we did in order to get to the bottom 
of all of these issues, my own schedule means that I need to 
leave. I will try to stay for as many as I can hear. I am going 
to hand the gavel, when I leave, over to Senator Vitter and he 
can run this and include Senator Landrieu. I think with the two 
of you Senators here, we should be able to get a lot of 
clarity.
    So, why do we not start with Jeff and we will go right 
through this way. OK?
    Go ahead, Jeff Jacobs.

STATEMENT OF JEFFREY JACOBS, SCHOLAR, NATIONAL RESEARCH COUNCIL 
AND STUDY DIRECTOR, COMMITTEE ON NEW ORLEANS REGIONAL HURRICANE 
                      PROTECTION PROJECTS

    Mr. Jacobs. Good afternoon, Madam Chair, members of the 
Committee, and others.
    My name is Jeffrey Jacobs. I am a Scholar with the National 
Research Council and I served as the Study Director for the 
National Academy of Engineering and National Research Council's 
Committee on New Orleans Regional Hurricane Protection 
Projects. The Council is the operating arm of the National 
Academy, which operates under an 1863 congressional charter to 
provide independent advice to the Federal Government on 
scientific and technical matters.
    Our committee was convened in December 2005 at the request 
of Mr. J.P. Woodley, then-Assistant Secretary of the Army for 
Civil Works, to review reports from the Interagency Performance 
Evaluation Task Force, or IPET. The IPET was established by the 
Corps of Engineers to evaluate the performance of the New 
Orleans hurricane protection system during Hurricane Katrina.
    Our committee's fifth and final report was issued in April 
2009 and it reviewed the IPET draft final report and also 
commented on lessons learned during Hurricane Katrina. My 
comments this afternoon summarize those lessons as identified 
in our report.
    One lesson regards the limits of protective structures. 
Hurricane Katrina illustrated undue optimism about the ability 
of structures such as levees and floodwalls to provide absolute 
flood protection. Post-Katrina strengthening of the system has 
reduced some vulnerabilities but the risks of inundation and 
flooding in New Orleans never can be fully eliminated by 
protective structures.
    Another lesson regards the future footprint of the 
hurricane protection system. Many reconstruction activities 
apparently are taking place largely according to the system's 
pre-Katrina footprint, without consideration of whether this 
configuration is optimal. We recommend that there should at 
least be some discussions of the pros and cons of different 
configurations of protective structures.
    Another lesson regards relocations. Regardless of future 
levee construction, it likely will not be possible to provide 
equal levels of flood protection across the city. Plans for 
system upgrades should discourage settlement in areas most 
vulnerable to hurricane storm surge, and voluntary relocation 
of people and neighborhoods out of particularly vulnerable 
areas should be considered as a public policy option.
    Another lesson regards flood proofing. Where it is not 
feasible to relocate people and buildings out of vulnerable 
areas, significant improvements in flood proofing will be 
essential. To provide adequate protection against flooding in 
vulnerable areas, we recommend that the first floor of houses 
be elevated to at least the height associated with the 100-year 
storm event.
    Another lesson regards the 100-year level of flood 
protection. The 100-year flood defines areas with a 1 percent 
chance of flooding. Each year, it is a crucial national flood 
insurance standard. For areas where levee failure is not a 
major safety concern, the 100-year standard may be appropriate 
for developing regulations and setting insurance rates.
    However, for heavily populated urban areas where failure of 
protective structures would be catastrophic, such as New 
Orleans, the 100-year standard is inadequate. By comparison, 
the Association of State Floodplain Managers recommends that 
the 500-year flood be used as a minimum safety standard for 
urban areas.
    Another lesson regards evacuation. Although the disaster 
response plan for New Orleans successfully evacuated much of 
the city before Katrina, it was inadequate. Future plans should 
consider options such as improved local and regional shelters 
to make evacuations less imposing and locating facilities for 
the ill and elderly away from more vulnerable areas subject to 
frequent evacuations.
    Another lesson regards risk communication. Before Katrina, 
there unfortunately was a limited appreciation of the risk 
associated with living behind levees. Risks posed by hurricanes 
and storm surge to New Orleans should be more consistently and 
effectively communicated to residents and decisionmakers.
    And a final lesson from our report regards periodic 
assessment and independent review. The level of protection 
provided by the New Orleans hurricane protection system has 
changed over the years because of factors such as geologic 
subsidence. It thus is important to conduct regular assessments 
that evaluate environmental and other factors that affect 
system performance. It also is important to provide an 
independent, second opinion of major engineering and design 
plans to help ensure that calculations are reliable and methods 
employed are appropriate.
    The post-Katrina setting poses many challenges and open 
questions. There is no model for post-hurricane recovery for 
New Orleans. Building a protection system to higher standards 
and making wise choices about future development should help 
create a safer city. But there is no clear agreement about the 
path forward.
    What does seem clear, however, is that information 
regarding the risk of hurricane storm surge and damages to New 
Orleans should be more widely acknowledged and appreciated than 
in the past and accorded a higher priority in future 
development plans and decisions.
    Madam Chair and members of the Committee, that concludes my 
remarks. I thank you for inviting me to speak with you today. I 
would be happy to discuss questions you may have about our 
committee's report.
    [The prepared statement of Mr. Jacobs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you very much. I am going to amend 
what I said before, just because I am very interested in this 
Pump to the River issue. Mr. Rault, would you mind going next? 
And then we will go to Steve.

STATEMENT OF JOSEPH M. RAULT, EXECUTIVE COMMITTEE BOARD MEMBER, 
                       PUMP TO THE RIVER

    Mr. Rault. Thank you very much, Madam Chair and 
distinguished Members of the Committee. It is really a pleasure 
to be here on behalf of the citizens of New Orleans and 
Jefferson, particularly with the widespread catastrophic 
problems caused by the breaches of the 17th Street Canal.
    My name is Joseph Rault. I am a native of New Orleans. I am 
representing a non-profit citizens group of 100,00 people who 
live in the Hoey's Basin as pointed out by Senator Vitter on 
the chart up front, 85,000 of which are in Orleans Parish or 
County, and 15,000 of which are in adjoining Jefferson Parish 
or County.
    We have 24 neighborhood groups who are listed on the map in 
the back of my testimony and, Madam Chair, I would like to ask 
that my written testimony be introduced in the record.
    Senator Boxer. Without objection. So ordered.
    Mr. Rault. Thank you so much.
    These 100,000 people are from all walks of life and all of 
them suffered tremendous problems.
    I am a graduate of MIT, for my background. I attended 
Georgetown Law here in Washington. I graduated from Tulane Law 
in New Orleans. I served in the United States Navy from 1943 
until 1946 and ended up as the commander of the USS LCI 549 at 
the Bikini atomic bomb test. I am a private businessman. I own 
my own business in medium high-rise development of office 
buildings, two of which are in Jefferson Parish.
    I have met over the last 3 years with the Corps at all of 
their partnering meetings, as described by the General. At 
every one of them where there were stakeholders involved, Pump 
to the River, Option 2 and Option 1 were all discussed and at 
each one, the consensus was that Option 2 was the way to go and 
Option 2a, known as Pump to the River, was an acceptable option 
and should be explored.
    My wife and I lived in Jefferson Parish for the last 30 
years. We raised our children and our grandchildren in a very 
happy environment. We lost our home, as did thousands of 
others. We want to restore that area. And speaking for that 
100,000 people, really representing the million people in the 
combined area, we would like to move forward.
    What did those people do? They immediately got on their 
horse and looked at all options and whether they could find a 
solution so we could go forward. And that was in the Corps' own 
record, where shortly after the storm the Corps engaged a study 
by DMJM Harris Company. And what did it say? This was just 
months after the storm. It said Pump to the River was a 
feasible option and should be explored.
    From that point on, we, the citizens in Jefferson Parish 
and Orleans, agreed to engage private engineers who came, 
verified, studied and saw that this was a real option.
    What is Pump to the River? As Senator Vitter said, it is 
very simple. You build a pipeline to the close-by Mississippi 
River, add a pump, and take the water from the source of where 
it is collecting in the lowest part of the basin. What does it 
do? It would take 25 percent of the water out of the 17th 
Street Canal system and would cost very competitively by the 
Corps' own statements, $205 million.
    They have linked a to 2, but it is an independent, self-
standing project that could be done with or without any other 
support. But I want to make it clear, we do support Option 2 
for the safety of the people. The advantage of this is that 
$205 million is only 6 percent of what the Corps is going to 
spend on the pumps at the mouth. The $205 million is only 20 
percent of what Option 2 would be. By reducing the water volume 
in the 17th Street Canal, this would be a significant, a 
significant, saving in any alterations and expenditures to the 
canal under Option 2.
    Similarly, this would reduce the costs of the pumps at the 
mouth of the canal at the Lake Pontchartrain side because there 
would be less water to handle at that end. And the most 
important part, as Senator Vitter pointed out and Senator 
Landrieu concurred, it is safer. It would simply take the water 
out of the system and avoid the huge risk of the collapse of 
the walls again. Again, this is independent system. It is not 
dependent on any other system.
    With due respect to the General's comments about storm 
surge, while it is nice to say that we are going to do the sill 
deep enough to accommodate either 1 or 2, this is not just 
about storm surge, it is about hurricane protection, whether it 
is from storms, storm surge, heavy rain, lightning, whatever 
might cause flooding to the citizens of that area.
    Now, who is for this? Everyone in the State unanimously is 
with this. The State of Louisiana, the city of New Orleans, the 
City Council of New Orleans, represented here by Joe Sherman, 
Jefferson Parish, represented here by Councilman John Young who 
has handed me resolutions that I would like put in the record 
from Jefferson Parish, and from the Regional Planning 
Commission of seven Parishes, that is seven counties, 
supporting Pump to the River and supporting 2 or 2a.
    May I have permission----
    Senator Boxer. Yes. Absolutely. Put it in the record. And 
if you could finish in the next minute or so.
    Mr. Rault. Thank you very much. I appreciate, Madam Chair--

    Senator Boxer. No, you are doing great. You are doing just 
fine.
    Mr. Rault. Who is against this? Nobody. The Corps has 
admitted, as Senator Vitter pointed out twice, once in writing 
in the 2007 report and again 3 weeks ago when Mr. Accardo 
voluntarily said it to a group of 400 people who were there to 
protest what the Corps was doing. I was one of them and my ears 
almost fell off when I heard it. And here today are other 
members of our committee who similarly were there: Lisa Ludwig, 
our project manager, John Baus, Joe Sharman and Dr. Shirley 
Laska of UNO, who prepared one of these.
    So, in conclusion, I can only say, Madam Chair and members 
of the Committee, thank you for seeing us. Pump to the River is 
the answer. In addition to Option 2, the safety is obvious. It 
is a stand-alone project. It can be done for a very competitive 
price of $205 million and it does not have to be bundled into 
any of the other options. It can stand alone and start 
immediately.
    We need help now, today, and not over an 8- or 10-year 
period as was suggested by the Corps as it might take for 2, 
which I seriously question. I also seriously question their 
estimate of the cost.
    Finally, the flood insurance claims paid by the U.S. 
Government in this area alone were $4.2 billion. Pump to the 
River is only 20 percent of that. It would pay for itself over 
and over again, not to mention the redundancy of all of the 
problems from the private insurance companies and so forth.
    Last, the biggest hospital in the area, Ochsner, is in this 
area and would be accommodated in its security and safety 
during a storm.
    Thank you so much for this opportunity on behalf of the 
100,000 people.
    [The prepared statement of Mr. Rault follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Senator Boxer. Thank you, Mr. Rault.
    I just want to take a personal privilege here as the Chair 
to say how much I appreciate our witnesses today, particularly 
Mr. Rault. Because I have to leave, I wanted to say that I have 
been having cross conversations with my two colleagues here. 
Having lived through so many floods in my area, a lot of folks 
say hey, why is Senator Boxer so interested? Because I 
understand what is at stake here.
    One of the first things I did when I was a member of the 
House, a long time ago, is to work on getting an appropriate 
flood control project for, believe it or not, a creek that 
would overflow to such a degree that it would absolutely flood 
many, many, many houses. Sometimes we actually had to have 
people evacuate to their rooftops. That is true. I remember 
that once. That was when I was on the County Board of 
Supervisors. So I get what water can do, what water can do.
    I am so persuaded that this Pump to the River project makes 
sense that I have asked my colleagues to work with me. We may 
not be able to wait for the next Water Resources Development 
Act. We may just have to go to our colleagues on the Committee 
and say, this is an urgent need. I think between Senator Vitter 
and myself, and Senator Landrieu, we can cover the Committee 
and see what they think about this. I am very worried that we 
are going to miss an opportunity here to authorize something 
that seems to make a lot of sense.
    I would just ask you, Mr. Rault, if you, working with my 
colleagues and the members of the community, would you see that 
the Committee gets copies of any studies that have been done 
that you are aware on Pump to the River? Studies either by the 
cities, the counties, and the flood control districts, all of 
the various agencies, the citizens. Do you have some of those?
    Senator Vitter. Madam Chair, actually Joe gave me a list of 
seven of exactly what you are talking about to submit to the 
record.
    Senator Boxer. Good. We have those in the record, so we 
will read those. But it seems to me if we can move forward with 
seven studies behind us with an authorization, and then have 
some hearings on it to just flesh it out further, and get our 
colleagues to go with us, I think we can persuade them. And 
then, of course, Senator Landrieu goes to her magic committee, 
the Appropriations Committee, and tries to get the thing 
moving.
    It just seems to me to make so much sense that if you are 
pumping everything into this lake, it is just common sense that 
if there is another place to put it that is deeper and wider 
and broader, then let us do that. We have got to get rid of the 
water and get rid of it fast.
    Look, obviously I respect the Corps. But I would like to 
say to the good General, without asking him to take the 
microphone again because the poor guy has done enough of that, 
if you would please respond to me in writing as to the Corps' 
view on the Pump to the River Project. If you could write to us 
about what you think the consensus is on that project.
    Here is the thing. I think Mr. Rault makes the case. It is 
a stand alone. So, this other fight over 1 and 2 goes on. But 
this, to me, it seems to me that we could do this and it does 
not do damage to our other discussion on Options 1 or 2 or 2a, 
or b or c or d.
    Mr. Rault. Thank you, Madam Chair, and I offered the seven 
engineering reports and other studies for the record and the 
engineers are ready to roll.
    Senator Boxer. Well, that is good. And at this point, I am 
going to hand the gavel over to my colleague. You know, there 
is a lot of trust in this, Senator Vitter, because Lord knows 
what you could do with me out of the room on other issues.
    [Laughter.]
    Senator Boxer. So, this is just for the purpose of this 
hearing. It is not for the purpose of writing global warming 
legislation, or Clean Air Act amendments. I have your word.
    I have really, frankly, learned so much from the people of 
your State and I have such respect for them and admiration for 
them and friendship with them. So, I hope you will consider me 
part of your team as we move forward.
    I know that things are going to get better. The reason is 
that you have people who are hearing you, are listening to you 
and you also have within your community the intelligence and 
the drive to save what James Carville says is a very special 
culture. And we in America cannot afford to lose that culture, 
that tradition, that history. And as long as I am Chairman of 
this Committee, you are not going to lose it. We are going to 
work very hard to get this done.
    I thank you and I will run on to my other meetings because 
California calls. I will turn the gavel over to my friend, 
Senator Vitter.
    Senator Vitter [presiding]. Thank you, Madam Chair, and you 
certainly have my commitment about the gavel today. We look 
forward to working with you, in the very near future, along the 
lines you have outlined. I would just suggest that we include 
in that clarification because I honestly do not think that this 
is anything new, that 2 is covered just as surely as 1, and 
then leave it up to the appropriators and others to study both.
    Thank you very much. Thank you for all your leadership.
    And now we will go back to the order and Mr. Steven 
Peyronnin.

   STATEMENT OF STEVEN PEYRONNIN, EXECUTIVE DIRECTOR OF THE 
             COALITION TO RESTORE COASTAL LOUISIANA

    Mr. Peyronnin. On behalf of the members and partners of the 
Coalition to Restore Coastal Louisiana, I thank you very much 
for the opportunity to be here today.
    I am sure it will come as no surprise to the members of 
this Committee that in the past 75 years, coastal Louisiana has 
lost more than 2,300 miles of coastal wetlands and that, 
without immediate and decisive action, Louisiana could 
potentially lose an additional 800 square miles by the year 
2050.
    Decades of science and planning have made it clear that we 
possess the scientific, technical and engineering expertise to 
restore sustainability to this landscape, and at the same time 
enhance reliable hurricane protection. What is lacking is a 
clear sense of urgency to pursue the projects, the plans and 
the tools authorized by Congress in the LCA.
    The LCA authorized the construction of five initial 
projects recommended in the Chief of Engineers report because 
of their advanced investigations and the ability to implement 
them expeditiously. Despite the clear path articulated in the 
authorization, only one project is scheduled to begin 
construction prior to 2012.
    Under the LCA, Congress also authorized the development and 
delivery of a comprehensive restoration plan by January 2008. 
This plan has not been initiated.
    Among the most critical elements of the restoration plan 
were the requirements for specific, measurable success criteria 
and a prioritized list of projects. Many scientists agree that 
it is not possible to restore the landscape of coastal 
Louisiana to historic conditions. This leads to the critical 
question of exactly how much of Louisiana's coast can be 
restored and which areas are the most essential?
    Without the most basic understanding of what a successful 
program should achieve, and what elements or projects are the 
most important, it is nearly impossible to prioritize limited 
resources to implement an effective and efficient program.
    Without a restoration plan, there is no framework for 
integrating restoration projects with storm protection 
projects. Despite technical modeling that indicates that the 
existing coastal landscape reduces storm surge, the Corps of 
Engineers has not analyzed how expanded restoration efforts 
would enhance hurricane protection.
    Without a restoration plan, there also is no framework for 
integrating restoration projects with navigation activities. 
Under the current management priorities for the Mississippi 
River, levees harness the river to prevent flooding and then 
funnel the trapped sediment beyond the continental shelf to 
maintain navigation. The result is the elimination of 
desperately needed sediment and fresh water from the 
surrounding ecosystem, exposing river levees to the full brunt 
of storms and hurricanes.
    This narrow management focus has created a system that is 
not sustainable. Recognizing restoration as an equal priority 
is not simply a matter of economic incentive or public safety. 
It is a matter of maintaining the sustainability of the entire 
lower river system.
    Comprehensive restorations will have implications that 
expand across the missions and capacities of multiple Federal 
agencies. The LCA authorization addressed this in two ways. 
First, by requiring the comprehensive plan to describe the role 
of other Federal and State agencies in a long-term restoration 
program, and second by establishing a task force of Federal and 
State entities to make recommendations and contribute financial 
support.
    With neither a comprehensive plan nor a task force in 
place, the Federal resources concentrated in coastal Louisiana 
are often disconnected and isolated. The result has been a 
segmented process that lacks critical input and resources from 
multiple agencies, negating the full leverage of a coordinated 
Federal effort.
    The LCA authorization created a number of tools, as I have 
described, for pushing forward with a programmatic restoration 
plan. The Corps has not used these tools, and has instead 
relied on a traditional project development process that is 
ill-suited to urgently respond to this crisis.
    The hurricanes of 2005 demonstrated that we cannot wait 
until after a disaster to insist on accountability. Scientists 
estimate that restoration efforts in coastal Louisiana have 
less than a decade before our chances of success are 
significantly reduced.
    Accountability simply must be a perpetual element of any 
effective program. But accountability must be balanced with the 
capacity to succeed. Given the shear scope and complexity of 
comprehensive restoration in coastal Louisiana, we must 
recognize that a true commitment will constitute the largest 
ecosystem restoration ever in the world.
    The issue before this Committee today has been described as 
the most preventable environmental crisis in America. Without a 
strong sense of urgency and commitment, we face the almost 
certain collapse of the largest delta on this continent, taking 
with it the very heart and soul of Louisiana.
    I thank you for your time to be here today and I welcome 
any questions.
    [The prepared statement of Mr. Peyronnin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Senator Vitter. Thank you very much, sir. Now we will here 
from Dr. Robert Twilley, who is a professor with the Department 
of Oceanography and Coastal Sciences at LSU.
    Thank you, Doctor.

   STATEMENT OF ROBERT R. TWILLEY, PROFESSOR, DEPARTMENT OF 
 OCEANOGRAPHY AND COASTAL SCIENCES, VICE CHANCELLOR, RESEARCH 
      AND ECONOMIC DEVELOPMENT, LOUISIANA STATE UNIVERSITY

    Mr. Twilley. Thank you very much. I appreciate this 
opportunity of lending some comments to the Committee on the 
Environment and Public Works.
    Let me start out just by saying that the sustainability of 
coastal Louisiana, as we have been hearing here today, is 
critical to the Nation. However, this is not just a Louisiana 
issue. The challenges facing the Gulf Coast reflect a national 
inability to come to grips with the need to deal with neglected 
infrastructure, both natural and built, and the realization 
that both of these natural and built environments provide 
security to coastal communities and to the Nation. It will not 
be possible to protect and restore coastal Louisiana without 
significant changes in the way the Federal and State 
governments deal with these issues.
    It is alarming that, even though the Nation's largest port 
and energy complex, a metropolitan area of 1 million residents, 
and coastal wetlands of immense value are at risk, that funds 
to support the restoration and protection of coastal Louisiana 
have been slow in coming. And I want to offer three major 
points around that theme.
    First, we have to, and it is urgent that, we devote our 
attention to finding solutions. There is much interest in 
solutions in the Gulf Coast that have been proposed by the 
Dutch in their efforts to protect The Netherlands. There are a 
couple of key points that the Dutch have learned that nearly 
three centuries of trying to live in a region largely below sea 
level that are relevant to our national priorities here in the 
United States.
    First and foremost, civil engineering has been replaced by 
the principles of ecological engineering. Working with nature 
is a first principle of the new Dutch system. The Dutch have 
learned that shortening the coast using hardened structures, 
such as barriers which disrupt the natural hydrology, can have 
major adverse environmental impacts. This includes the 
realities of how a changing climate must be part of any new 
design features.
    Second, water quality issues can limit the sustainable 
solutions to more comprehensive water management. Thus, 
strategies to reduce nutrients have to be in concert with water 
management solutions.
    The Gulf Coast region has been attempting to deal with 
similar comprehensive approaches to watershed management, 
recognizing that the problems of Southern Louisiana are not 
solely those of our State.
    First, sediment required to replenish the wetlands will 
come down the Mississippi River and much of the original 
sediment load of the Mississippi is trapped behind major dams 
in the Missouri River system. Thus, a more comprehensive 
approach to sediment buffers is required.
    Second, a major dead zone, an area where marine life is 
stressed because of lack of oxygen, now exists in the Gulf of 
Mexico along Louisiana and parts of Texas as a result of 
excessive nutrients traveling the Mississippi from the farmland 
of the Midwest. Although sediments are critical to rebuilding 
the wetlands of the Mississippi River Delta, additional 
nutrients flowing through the river divergent structures could 
potentially impair inland waters of the State, shutting down 
our most critical strategy of restoring the Mississippi River 
Delta. Therefore, we must find practices and political will to 
reduce nutrients to the Gulf Coast hypoxic zone.
    Third, the specter of climate change is adding to the 
coastal and water management challenges. Existing projects will 
have to be modified to accomplish the purposes for which they 
originally were designed and additional attention will be 
required to deal with the already significant strain on 
recovering ecosystems.
    Only through rethinking how we manage the Mississippi 
River, not only to provide for navigation and flood control but 
also as a critical source of sediments to stabilize the 
degrading wetlands, will restoration be realized in a 100-year 
project cycle given the projected rates of sea level rise.
    To do this, we have to urgently look for ways to fund these 
solutions. The largest source of funds for dealing with major 
water projects is found in the budget of the Corps. 
Unfortunately, priority setting is tied to a rudderless system 
for allocating Federal funds and assessing national needs.
    Is it difficult to justify a national priority when 
objectives at the national level are not clear? Developing on a 
needs assessment is dependent upon national policies that are 
perfectly defined national goals for water use. Whom do we 
protect from flooding? What infrastructure is at risk? What 
losses and risks are most valuable to the economic, ecological 
and social well-being of this Nation? How important are our 
ports to the economy of this Country?
    Recent National Research Council studies of the Corps' 
planning process and projects have indicated that the Corps is 
faced with conflicting laws and regulations that make 
prioritization and description needs difficult to manage.
    I will end with what I find to be one of the most important 
parts of this issue which is that not only do we have to find 
solutions, not only do we have to fund solutions, we have to 
coordinate solutions. In the past, the United States 
successfully established processes that deal with challenges of 
developing priorities and funding to deal with water issues of 
national significance.
    In 1879, Congress established the Mississippi River 
Commission with the mission of providing a navigable 
Mississippi and reducing the ravages of frequent floods. After 
the 1927 flood, Congress passed the Flood Control Act in 1928 
which created the comprehensive Mississippi River and 
Tributaries project. This permitted the commission to deal with 
the lower valley as a whole: one mission, one entity and, 
therefore, a very successful cooperative project among 
interested parties to integrate resources to meet the 
challenge.
    Although times are much different today, the need to deal 
with issues in the lower Mississippi River Valley in a 
comprehensive manner remains. The continuous funding on the 
work of the lower Mississippi River Valley for nearly 80 years 
and the comprehensiveness of the effort show the utility of 
developing a separate Federal project, similar to the MR&T, for 
restoring and protecting coastal Louisiana.
    Now, I will finish with this comment. Protection and 
restoration of coastal Louisiana should be a major priority for 
the United States. The Nation cannot live without its water 
resources and deltaic coast. It cannot continue to watch 
Louisiana disappear. Sooner or later, it will have to address 
the problem. The longer we wait, the more difficult the problem 
will become and the more money the eventual solution will cost.
    Thank you.
    [The prepared statement of Mr. Twilley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Vitter. Thank you, Dr. Twilley.
    And now we will hear from Thomas L. Jackson. He is 
Commissioner and past President of the Southeast Louisiana 
Flood Protection Authority East and 2003 National President of 
the American Society of Civil Engineers.
    Welcome.

 STATEMENT OF THOMAS L. JACKSON, P.E., D.WRE, COMMISSIONER AND 
     PAST PRESIDENT, SOUTHEAST LOUISIANA FLOOD PROTECTION 
                        AUTHORITY--EAST

    Mr. Jackson. Thank you, Senators.
    I will skip my first part, which repeated what you just 
said. I will add that I am a registered professional civil 
engineer with specialty certification in water resources, was 
educated at Tulane University, and am also a lifelong resident 
of New Orleans and Jefferson Parish. So, I do have a vested 
interest.
    My report to you today will focus on the selection of 
options for the pumping stations planned by the Corps of 
Engineers for the three outflow canals at the lakefront in 
Orleans Parish. The 17th Street, London and Orleans outfall 
canals drain the central part of the city of New Orleans and a 
portion of Jefferson Parish.
    Following Hurricane Betsy flooding, the Corps raised the 
canal levees to 12.5 feet. While the Corps own engineers 
recommended T-walls to raise these canal levees, the Corps 
insisted that I-walls be used because they were cheap and 
within their budget for the project. Sound familiar? 
Unfortunately, during Hurricane Katrina, sections of these 
cheaper I-walls failed along the 17th Street and London Avenue 
Canals, flooding the city and a portion of Jefferson Parish.
    Temporary pump stations and floodgates have been built at 
the lakefront to prevent hurricane tidal surges from entering 
these canals at this time. Levees and floodwalls along the 17th 
Street Canal have only been declared to be safe up to a level 
of 6 feet, not 12.5 feet as built by the Corps in the 1960s, 
and I think that was brought out earlier. Rainwater pumping at 
local stations will raise these canal levels at or near these 
maximum water levels every time we have a hard rainfall.
    Permanent pumping stations and floodgates at the lakefront 
are planned by the Corps under Option 1. Local pumping stations 
would then pump directly into Lake Pontchartrain during non-
hurricane events, only utilizing the new lakefront pumping 
stations when lake levels approach maximum safe water levels in 
the canals.
    The Corps contends that only Option 1 is within the 
congressional authorization and budget, even though they have 
admitted that Option 2 is technically superior to Option 1.
    Option 1 will leave the responsibility for the Corps' 
defective levees and floodwalls to local interests. The bottom 
line is that the Corps built poorly designed floodwalls and now 
they want to put the responsibility for their errors on local 
interests. They say protection can only be provided at the 
lakefront in accordance with their congressional authorization.
    An extremely crucial consideration in this selection of 
options at issue is that safe water levels in these canals are 
not static. During each rainfall, silt from urban runoff 
settles to the bottom of the canals every time the pumps are 
shut off, further restricting the canals. From time to time, 
the canals must be dug out to remove this silt. This cleaning 
will further deteriorate the levees and floodwalls and reduce 
the safe water levels to a point that local pumps cannot be 
operated at full capacity, resulting in flooding the city.
    In addition, the stability of the levees and I-walls will 
continue to deteriorate because of poor soil conditions beneath 
these levees. It is incomprehensible that an agency of the 
Federal Government would be allowed by Congress to only 
partially correct such a serious error and dump the 
responsibility on local government as would happen under Option 
1.
    So what is the solution? Option 2, as shown by the Corps in 
its 90-day report to the Congress, would provide a full time 
pump station at the lakefront on each of these canals, removal 
of the interior local pump stations and conversion of the 
canals to low level, which would negate the need for the 
existing defective interior levees. The Corps has not 
adequately studied Option 2 and has rejected it outright saying 
they are not authorized to do any work that is not along the 
new hurricane protection alignment along the lakefront. The 
Corps has even publicly admitted that Option 2 is technically 
superior for overall needs.
    What are the advantages of Option 2? First and foremost, 
the elimination of the intrusion of high water levels into the 
heart of the city. Second, the elimination altogether of the 
need for the defective levees and floodwalls. Third, 
improvements to local drainage. And fourth, drainage systems in 
Jefferson and Orleans could be interconnected for use during 
emergency situations.
    In an attempt to reduce the volume of rainwater in the 17th 
Street Canal, Jefferson Parish suggested building a pumping 
station in Jefferson to pump rainwater directly into the 
Mississippi River. Option 2a would be helpful because it would 
decrease the load on the overburdened levees along the 17th 
Street Canal, as we discussed earlier.
    What are we asking the Congress to do for us today? We ask 
that, as soon as possible, the Congress re-write the 
authorization, if necessary, to provide protection along the 
lakefront as well as any work necessary to eliminate the 
defective and inadequate protection along these outfall canals.
    Second, we ask that the Congress authorize and require that 
the Corps conduct a thorough study of Option 2.
    Third, we ask that Congress require that the Corps include 
the services of at least two external peer review experts for 
this evaluation.
    Last, we ask that Congress create a panel of local 
interests and instruct the Corps and the peer review experts to 
provide monthly reports.
    The interim pump stations and gates can provide protection 
while the best solution is studied and constructed. Additional 
studies are necessary because this is a situation where 
complete studies have not yet been conducted and the wrong 
solution is underway post haste by the Corps.
    The people in this community deserve the best solution. 
Please do not allow the Corps to fail us again based on the 
Corps' short-sighted and unnecessarily restrictive 
interpretation of congressional authorization for hurricane 
protection.
    Thank you very much.
    [The prepared statement of Mr. Jackson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                
    Senator Vitter. Thank you very much, Mr. Jackson. Thanks to 
all of you.
    As we begin questions, let me just submit for the record 
the seven items, reports, petitions, engineering studies 
supporting Pump to the River, a statement of Congressman Steve 
Scalise on all of these topics, and a list of further questions 
for the Corps of Engineers which, General, I will get to you in 
writing and you can have any reasonable amount of time to 
submit answers in writing.
    [The referenced documents follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Senator Vitter. The first one, I will just alert you, are 
20 different significant items under the last WRDA bill which 
were mandated by the bill to track progress on those and, by 
our account, there has been little to no progress on those 20 
items. But I will submit all of that for the record without 
objection. That is made part of the record.
    Senator Landrieu, why do you not start with a 12-minute 
round and I will do that and, if we need to go further, we will 
do that.
    Senator Landrieu. Thank you, Senator Vitter.
    I think the testimony on Pump to the River has been 
substantial and quite clear. I just have a question, either to 
Mr. Rault or to Mr. Jackson. When you evaluated the Pump to the 
River model, Mr. Rault, what about the London Avenue Canal? Is 
that the same situation as the 17th Street Canal or is that 
different? Obviously, it is not the same geography exactly, but 
I guess it contributes to the draining of the city. I do not 
hear that mentioned at all. Is there a reason, Tom?
    Mr. Jackson. Senator Landrieu, under an agreement right 
after my retirement from AECOM, the company I worked for, I was 
under a consulting agreement with that firm and that firm was 
hired by the Corps to look at all potential discharge sites 
other than what was planned for the lakefront.
    We looked and found very little, I must admit. We really 
kind of got out of the box in terms of looking at things that 
initially we would have normally dismissed. Of the two that 
appeared to have some possibility, the best possibility was 
Pump to the River at the southern end of the 17th Street Canal 
for the issues that Mr. Rault talked about.
    The London Avenue Canal, there are a couple of options that 
we offered in that report, one of which was the New Orleans 
Sewage and Water Board station which pumps its ``headwaters'' 
of the London Avenue Canal and also has a feature built into it 
right now that can pump into the Florida Avenue Canal, which 
flows east and is pumped into the Industrial Canal. The 
recommendation there was, while that canal was being improved 
under a SELA project, to increase the capacity so as to relieve 
some of the flow in the London Avenue Canal.
    Another alternative on the London Avenue Canal, there was a 
second pumping station, it sits on the east bank of the London 
Avenue Canal about halfway between its headwaters and the lake, 
and there is perhaps a potential, with further study, that that 
could also drain and then be pumped into the Industrial Canal. 
So, there are two possibilities on the Industrial Canal.
    The Orleans Avenue Canal is a very light flow by comparison 
to the other two, and we found no reason, although we did look 
at a number of options, including using Bayou St. John which, I 
think all of us who live there know that would be suicide. But 
we even looked at that and we looked at pond storage of water 
in the wide median on the Pontchartrain Expressway, at the end 
of the Pontchartrain Expressway, Pontchartrain Boulevard.
    So, we looked at a lot of different issues. But those three 
were the only three, one on 17 and two on London, which showed 
some potential.
    Senator Landrieu. Well, I am glad that you mentioned that 
and I am going to submit in writing some questions to our levee 
boards because, while the focus today is really on the Pump to 
the River option and pressing the Corps of Engineers to admit 
that it is either in their authorization to proceed or to get 
them to support a new authorization to get that done, 
ultimately, and I think Senator Vitter and our whole delegation 
share this, we want a comprehensive system that keeps people in 
this area free from flooding to the greatest degree possible, 
regardless of whether it is from storm surge or rain. And it is 
from all of Orleans Parish, Jefferson, St. Bernard, 
Plaquemines, and, frankly, into the river parishes and 
ultimately to all of South Louisiana.
    So, I am going to ask the levee boards to submit for the 
record of this hearing some additional options in that regard 
such as the retaining ponds. And do you know for the record, or 
does anyone want to testify to, the number of drainage canals 
in this metropolitan area either exposed or buried? Do we even 
have a comprehensive number that we talk about to the public? 
When you say the public should be made aware, this is part of 
the public becoming aware. Do we have a universal number that 
we agree to?
    Mr. Jackson. I am sure the Sewage and Water Board could 
give us a record, as well as Jefferson Parish and, of course, 
St. Bernard Parish. But it is in hundreds of miles----
    Senator Landrieu. Well, I am going to ask for that to be 
submitted because it is important for our community but also 
for the Nation to realize that, while the focus has been on the 
17th Street, the London and the Industrial, I do not want 
anyone to think there are just three canals in this region. 
That would be a huge mistake. I think we must get on the record 
the complexity and extent that we are talking about. So, Mr. 
Jackson, if you would try to do that in your time, I would 
appreciate it. And if the Corps can be of any help on that, 
even though you are not yet exactly focused on internal and we 
hope to get you more focused on.
    [The information follows:]

    Orleans--100 miles, Jefferson--60 miles, and St. Bernard--
60 miles.

    Senator Landrieu. Mr. Jacobs, a question I have wanted to 
ask you for a while. The report, and I understand that you all 
have been doing this for quite some time, the National Academy 
of Sciences. I think you said it was 1860, what was it?
    Mr. Jacobs. The National Academy of Sciences was 
established in 1863.
    Senator Landrieu. Eighteen sixty-three. All right. Either 
since 1963, or maybe to make it more relevant let us say in the 
last 25 years or 30 or so years, has the United States 
successfully moved any city or small community? And if so, how 
small or how large? What is the experience that you, or the 
engineers, have? Because that is basically what you all, part 
of your recommendation, was that people would just move. So, 
when did we do that in the last 25 years and to what extent?
    Mr. Jacobs. Well, it is a very good question. And, of 
course, the situation in New Orleans is very unique, it is a 
very vexing challenge given the number of people there and the 
unique hydrology topography----
    Senator Landrieu. But I want you to answer, if you can, 
when in the experience of either you, personally, or the 
organization that you are representing, has the United States 
relocated any significant amount of people for flooding?
    Mr. Jacobs. The best example I can think of is the city of 
Valmeyer, Illinois. Are you aware of this one?
    Senator Landrieu. How large was that city?
    Mr. Jacobs. I think it was about 2,000 people.
    Senator Landrieu. Two thousand people. And what year was 
it?
    Mr. Jacobs. I do not know the year of the relocation but it 
was after the 1993 Mississippi River floods.
    Senator Landrieu. OK and it was 2,000. Do you recall if all 
2,000 of those people were relocated?
    Mr. Jacobs. To my understanding, they have not all been 
relocated. The vast majority of them have.
    Senator Landrieu. OK. Well let us, for the record, find out 
because this is one of the core issues that I am going to focus 
on. Let us just say 2,000 people and let us say 2 people per 
house. That is 1,000 houses. I would like to know how many of 
those houses were actually moved and if it was less, it might 
be 3 people per house, but let us say it was 1,000 homes. Do 
you know that we lost 250,000 homes in Louisiana?
    Mr. Jacobs. Yes, I am aware of some of those statistics.
    Senator Landrieu. So, do you all want to stand on your 
suggestion that we just move the 250,000 people?
    Mr. Jacobs. Well, in our report we did not use that number. 
The point that we were making is that relocations, where 
viable, should just be considered.
    Senator Landrieu. I realize that. The reason I am pointing 
that out is, with all due respect to your very prestigious 
organization, it is really what has the people of my community 
quite troubled and anxious. If you start from throwing out just 
an idea that one of the solutions is that people can just move, 
and you only have moved 1,000 homes at the most in the last 25 
years, and we have 250,000 plus that need to be protected, it 
just leaves us really scratching our heads.
    We are searching for another more realistic, cost 
effective, in the real world solution, such as building levees 
and internal flood control and restoration of wetlands and 
diversion projects, that will help the people of not just this 
delta, but all over the coast, live safely.
    The other issue that you all point out in here is about 
reducing the footprint. To people that hear that, that means 
that they are going to build a levee on the wrong side of my 
house and I am outside the levee protection. So where is the 
levee going to be built? What neighborhoods are going to be in? 
What neighborhoods are going to be out?
    Again, in the last 25 or 30 years, has a whole system been 
designed that actually reduced a footprint by, let us say, 15 
percent or 20 percent or 25 percent? To your knowledge, has 
this ever been done?
    Mr. Jacobs. No, Senator, I do not know of any other similar 
experience to New Orleans and Katrina.
    Senator Landrieu. OK. Well, I would just hope that people 
who continue to refer to this study will call to this testimony 
that, in the last 25 years, this organization is only aware 
that one town was partially moved of 2,000 people or less, and 
they do not testify that at any time there was actually a 
smaller footprint actually adopted.
    I want to say that my intention is to expand the footprint 
of this city and this region. My intention is that this region 
will have a flood control protection system that is safe and 
secure for future economic growth and development. I reject the 
notion that either Jefferson Parish or Orleans Parish or St. 
Bernard Parish or Plaquemines Parish will never have a greater 
footprint or a higher density or a greater population. I 
realize that expanding a footprint is different that expanding 
the population.
    As the Senator from this State, I want to say that I am not 
going to lead the retreat. I will not lead the retreat. We are 
going to reclaim our land and reclaim our safety.
    My time is almost at an end here. But I do want to say that 
one of the startling things, and I say startling, things that I 
learned in the delta in The Netherlands is that this country 
does not even have flood insurance. Think about that. They do 
not even carry flood insurance in Amsterdam or Rotterdam. It is 
unavailable and it is unnecessary. Well, I am not sure it is 
unavailable but it is not carried by a broad number of people 
because their system of protection is so strong and guaranteed 
to such levels of safety that it is quite unnecessary. Instead 
of the money they are using to pay premiums, for better or 
worse, they invest in a flood control system.
    Now, I am not suggesting that we can move from where we are 
to that system entirely or that anyone should give up their 
insurance that they are probably happy to have. But I am 
suggesting that this retreat and pulling up is not the 
direction that we should move into.
    I am happy for the testimony today and look forward to 
continued questioning at a later date.
    Senator Vitter. Thank you, Senator.
    I want to follow up on the outfall canal and the Pump to 
the River discussion.
    As we were discussing with the General, Option 1 requires 
the artificial lowering of the water level in the 17th Street 
Canal, well below what we thought was normal and safe before 
Katrina. Is that fair to say, Mr. Rault and Mr. Jackson?
    Mr. Rault. That is correct. We have only got 6 feet 
permitted out of a 12.5 foot levee.
    Senator Vitter. So, the wall was built 12.5 feet and now we 
are told that you cannot allow it to go higher than 6 feet. Is 
that right, Mr. Jackson?
    Mr. Jackson. Yes. Let me try to clarify a little bit. The 
Corps has closed off and plans to, with Option 1, close off 
tidal surge at the lakefront so that the canal levels in 17, 
Orleans and London would then be maintained at what would be 
considered approximately normal during a non-hurricane or a 
non-storm or a non-strong wind event. That may sound good if 
the levees on either side of the canals were substantial, 
dependable, and that we would not have to worry about 
excavating the canals and removing silt and so forth in order 
to maintain that stability.
    One of the things that I have said to people is that maybe 
a failure of the canal wall during a hurricane would not dump 
Lake Pontchartrain and the Gulf of Mexico into the city of New 
Orleans. But if you lived anywhere in the vicinity of that 
breach, there is still a lot of water in that canal up to 
elevation six and it would ruin a whole bunch of people's 
lives. It would not be as extensive a disaster as it would have 
been prior, and I give the Corps credit for that.
    Senator Vitter. So, part of what you are saying, let me ask 
it this way: as an engineer, are you confident that maintaining 
that safe water level or lower will avoid any chance of a 
breach in those walls as we saw after Katrina?
    Mr. Jackson. I am absolutely not confident in the levees 
that are built, the floodwalls, the I-walls and sheet piles 
that were built. The section that failed may have been in a 
particularly bad soil. However, there has not been sufficient 
investigation to know if that was the only spot that there were 
terrible soils. For instance, the old Burried Beach Ridge, 
which was the primary failure point along London Avenue Canal, 
also passes across the 17th Street Canal south of Interstate 
10. There is potential for the same kind of failures under the 
same kind of conditions there as there was on London.
    Senator Vitter. So, just to underscore this, where the 
canal walls breached have been replaced with a whole new 
design. Correct?
    Mr. Jackson. T-walls.
    Senator Vitter. But everywhere where they did not breach, 
which is 99 percent of the length of the walls, we have the 
same design and the same walls as we had before Katrina. Is 
that correct?
    Mr. Jackson. That is correct, Senator.
    Senator Vitter. And under Option 1, that would not change?
    Mr. Jackson. That would not change. Under Option 2, there 
would be no need for either levees on the Orleans or the 
Jefferson side. I would recommend that we leave the levees on 
the Jefferson side of the canal to act as a polder separation, 
i.e., a safety valve.
    Senator Vitter. So again, under Option 1, that would not 
change. Under Option 2, it would completely change for the 
better.
    Mr. Jackson. The system, I know you are all both familiar 
with Jefferson Parish, the system would look just like the 
Jefferson Parish outfall canals with a pump station at the 
lake.
    Senator Vitter. Right. Right.
    Mr. Rault. Senator, if I might add to that?
    Senator Vitter. Sure, Mr. Rault.
    Mr. Rault. Thank you. Our research and due diligence in 
developing our support of 2 and Pump to the River reflects that 
as recently as mid-March of this year, just a few months ago, 
the safe level was threatened in one of the outfall canals so 
much so that the Corps of Engineers asked the Sewage and Water 
Board to stop the pumps. Now, that was just in a rain event. It 
was not a hurricane, just a normal, New Orleans rain event.
    So I think it underscores the problem that all of us have, 
including you and Senator Landrieu, as to how this choreography 
of keeping under that safe level, particularly in a hurricane 
event, could work out where you have two pump stations working 
together, supposedly.
    Senator Vitter. Right. Right. Let me ask you both also if 
under Option 1 we have to keep the water level at six feet 
instead of 12.5, apart from the pumping capacity, that is a 
huge amount of water storage capacity, is it not, that is 
essentially lost? That is water that is going to have to be on 
the street instead of being put in the canal. Is that not 
correct?
    Mr. Jackson. Yes, Senator. However, we are under a pump 
system and, if we are open to the lake, we are pushing the 
water into the lake----
    Senator Vitter. But my point is, if under Option 1 you 
cannot allow the water to get past 6 feet, you are giving up a 
lot of safe storage between 6 feet and 12.5 feet, which we 
thought we had, which the system was designed to include?
    Mr. Jackson. What we are giving up is a tremendous amount 
of hydrologic capacity, how much water can flow through that 
canal. That is what we are giving up by lowering the water 
surface.
    Senator Landrieu. So that stays on the street?
    Mr. Jackson. Right. Absolutely. Or in someone's living 
room.
    Senator Vitter. So, given that, is not the general concept 
of Pump to the River to move a significant volume of water in a 
whole other direction and avoid the 17th Street Canal, a 
reasonable compensation for that enormous loss from the 
capacity we thought we had before Katrina?
    Mr. Jackson. Yes. I would recommend strongly that both the 
Pump to the River, as well as the diversion of water off of 
London Avenue Canal, the two suggestions I made earlier, be 
investigated to reduce the flows in those outfall canals. 
Everything we can do to reduce those flows will help the whole 
situation and it will help the ultimate cost of Option 2 on 
each of those canals, or even Option 1 for that matter.
    Senator Vitter. Mr. Rault.
    Mr. Rault. That is correct. I agree with Tom. We think that 
the lack of, the missing storage capacity, would end of on the 
streets and in the living rooms. It has happened before. The 
famous May 15th flood was strictly from the rainfall. There was 
no hurricane. How many times have we seen that? That is why I 
do not understand, we thought this was for hurricane 
protection, not just storm surge.
    Senator Vitter. I guess one of the points I am trying to 
make is that the Corps will say, well, under Option 1 we are 
going to match at the lake the pumping capacity that the city 
has in the center of the city. We have some debate about 
whether that is true. But even if it is true, that ignores the 
storage issue, does it not? There is a whole lot of volume for 
storing water off the streets out of homes that we were 
supposed to have that is now being taken away from us. And that 
volume of water is represented by the length of the canal times 
the width of the canal times the difference between 6 feet and 
12.5 feet. That is a lot of water.
    Mr. Rault. Yes, sir, it certainly is. As a homeowner would 
say, water is water. If my home is damaged by this kind of 
water or that kind of water, hurricane water, floodwater, 
whatever, it is still damaged. There is no question that the 
lack of using that capacity between 6 feet and 12.5 feet in the 
London Canal is going to be dumped on the streets in Louisiana, 
so much so that Jefferson Parish has already had to go and 
create ponding areas, like in playgrounds, in try to avoid 
that.
    Senator Vitter. Right. Right.
    Mr. Rault. Pump to the River would definitely be the 
answer, as you have clearly pointed out, to eliminate that 
problem and at a very competitive price.
    Senator Vitter. Well, again, I would make the point that 
not only is it an answer, all it would be doing is compensating 
us for what is being taken away in the safe water level, for 
the capacity we were told we had.
    Mr. Jackson. Which, in fact, we do not have in a safe way.
    Mr. Rault. It is a replacement, that is correct.
    Mr. Jackson. And that we paid for. We paid our local share 
and our Federal tax dollars paid for the Federal share.
    Senator Vitter. Let me ask the other witnesses. In my 
opening statement, I expressed a frustration, also, with some 
of the ways the Corps is moving forward with the overall 
Louisiana coastal plan in being very general in terms of 
decision matrixes and other things versus far more specific 
with regard to possible future projects. That obviously impedes 
our ability to move some specific, concrete project forward 
beyond the 100-year plan. Do you all have any reaction to that 
critique or that concern?
    Mr. Peyronnin. Senator, I think that it an accurate 
assessment. From a restoration perspective, our concern is 
that, similar to the levee criteria right now, there is no 
mechanism through which we can reflect the urgency of need 
under the traditional policy and guideline Corps process that 
has guided the Corps decisionmaking process for quite some 
time. That is currently up for revision at this point in time. 
I think a draft was submitted in 2008 and it is moving toward a 
final copy.
    I think that an essential component of looking at how the 
Corps makes decisions is recognizing that all of the decisions 
we need to make about our environmental projects, our 
protection projects, are not equal. They certainly are all very 
important. But clearly, in coastal Louisiana, we are facing 
projects that have severe implications for the loss of life, 
the protection of significant property infrastructure, and 
there simply must be an expedited framework.
    For example, I know that there has been an expedited 
framework for levee construction in greater New Orleans areas 
where the need for process has been reviewed. Clearly, there 
are opportunities within the Corps' process. If we can look at 
NEPA, and expedite NEPA processes, certainly there is an 
opportunity within the Corps' process that we could expedite 
absolutely critical and essential projects.
    Senator Vitter. Dr. Twilley.
    Mr. Twilley. I would just like to make one comment. I think 
it is critical that we focus. And the focus has to be on the 
river. This is a delta. This delta has to have its river. We 
have abandoned the delta by managing the river, in the proper 
situation, for flood control and navigation.
    Again, as I stated in my comments, we need a national 
agenda, a national priority, by which this delta not only 
includes, under the present Mississippi River Tributary Act, 
the responsibilities of navigation and flood control, but under 
a multipurpose scenario, you have to include ecosystem 
restoration and protection.
    And that has to be at the national level with a commitment 
of what that region means to the Nation. Without managing the 
river and putting the river back in these flood plains, this 
system will not be able to sustain itself.
    Senator Vitter. Thank you. Senator Landrieu.
    Senator Landrieu. This is very final. I would just like to 
close by reading again into the record what the language 
clearly says about the $3 billion that we allocated in this 
Congress with a tough battle, a hard fought battle, $3 billion 
of which $530 million is focused on this project.
    But, to the Corps of Engineers that is still here, I want 
to read the controlling language. It says to provide hurricane 
and storm damage reduction and flood damage reduction in the 
greater New Orleans and surrounding areas, $530 million shall 
be used to modify the system that we clearly saw in front of us 
was not functioning correctly, resulting in the damage, 
catastrophic damage, in the loss of 250,000 homes.
    So, I think this hearing has been very good, Senator 
Vitter, and I thank you for your leadership. It is hard for me 
to believe we have to go through this hearing, though, based on 
the clear language that is in the law now. However, we are 
going to pursue whatever it takes to the Corps of Engineers to 
get this project done correctly.
    And Pump to the River should be included and some 
additional options, Mr. Jackson, to the London Avenue Canal and 
perhaps some other canals. Dr. Twilley, thank you for your 
comments about the coast and the urgency of moving toward 
better management of the river itself to help with this 
project, and Mr. Peyronnin, for your focus on the comprehensive 
nature.
    I will finally end with the requirements of a comprehensive 
plan. I would like to just ask you all, particularly Mr. 
Jacobs, Mr. Peyronnin and Dr. Twilley, are you all familiar 
with the Dutch model? While I know that are situation is 
somewhat different in many, many aspects, we are a much larger 
Country, they are much smaller, they have 16 million people, we 
have more, their whole country could fit inside of the bottom 
third of Louisiana. What similarities do you see and what are 
the one of two things that you think we could really appreciate 
from the Dutch model? I ask you to be very brief, 30 seconds or 
less.
    Mr. Jacobs.
    Mr. Jacobs. Thank you, Senator. I will be brief. I think 
the one point I would note is the higher level of flood 
protection for urban areas.
    Senator Landrieu. It is one every what, 10,000 years?
    Mr. Jacobs. Well, I think they have something like that in 
The Netherlands, do they not, a 10,000-year level of 
protection? Whereas in New Orleans and other parts of our 
Country, we are generally using the one in 100-year level of 
protection. Obviously, a great discrepancy and I mention the 
Association of State Floodplain Managers and their 
recommendation for a minimum 500-year standard for urban areas.
    Senator Landrieu. Mr. Peyronnin.
    Mr. Peyronnin. Yes, Senator. While I am not immediately 
familiar with the entire Dutch system, I will note that my 
experience is that they have taken on a perspective that they 
have to live with water. They understand the implications of 
trying to necessarily trying to control water and in fact I 
believe have launched a recent campaign about educating their 
citizens and looking at that from a water resource perspective.
    The government structure is such that it understands that 
the commitment they have made to structural flood protection is 
extremely demanding from a financial perspective and has no 
guaranty of sustainability long into the future. They have 
started to look at other methodologies through which they can 
accomplish significant long-term sustainable flood protection 
that include better water resource management from a 
comprehensive perspective.
    Senator Landrieu. Dr. Twilley.
    Mr. Twilley. Simply, a national mandate. I mean, it is 
evident that they have a national priority of protecting the 
coast and with that, they marshal, as you saw at Deltaurus, 
some of the top engineering and science and coastal science 
related to these new principles which they call Give the River 
Room and in which they actually try to combine engineering 
design with ecological and coastal realities. And I think that 
comes from a national agenda, a national priority, and they put 
the fiscal resources into it to achieve it.
    Senator Landrieu. Thank you. And thank you, Senator Vitter.
    Senator Vitter. Thank you to all of our witnesses.
    Just to summarize, my personal goal coming out of this 
hearing, which I think is shared by Senator Landrieu and Chair 
Boxer, is to first urge the Corps again to reconsider their 
position on authorization of 2 versus 1. I believe it very 
clear that they are both authorized.
    But as we do that, to work with Chair Boxer and this 
Committee to pass authorization as quickly as possible for Pump 
to the River and the clarification on the 2 is included as well 
as 1 issue. So, we are going to be working in a very focused 
way on that in the next few weeks and we were literally talking 
to Chair Boxer about it during this hearing and have a clear 
path forward and we thank her for that.
    Thank you all for your very valuable testimony and the 
hearing is adjourned.
    [Whereupon, at 4:55 p.m. the full Committee was adjourned.]
    [An additional statement submitted for the record follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Thank you, Madam Chairman, for holding this hearing, and 
thank you to all the witnesses for agreeing to discuss these 
important issues with us today. I would also like to commend 
Senator Vitter for his tireless efforts on behalf of the people 
of Louisiana, particularly on issues related to the Corps of 
Engineers. EPW has not held a hearing dedicated to these 
Louisiana issues since a field hearing in February 2007. Both 
this hearing and that field hearing were prompted by Senator 
Vitter. He has worked very diligently to educate his colleagues 
here in the Senate on the importance of taking action, as well 
as on the details of what Congress needs to do to ensure proper 
protection for his State.
    The issues surrounding how to provide hurricane and flood 
protection for New Orleans as well as appropriate coastal 
restoration activities are numerous and complex. The projects 
themselves are also very expensive. Oversight hearings like 
this one are an important step in ensuring that these things 
get done right. The people of Louisiana are counting on it for 
their very existence and way of life. The American taxpayers 
are counting on knowing that their tax dollars are being spent 
wisely, and not wasted on things that won't work technically or 
that won't provide all the benefits promised as justification 
for the costs.
    This Committee previously has held several hearings 
establishing the reasoning for a Federal role in coastal 
restoration activities in southern Louisiana. Unlike the 
situation with the Florida Everglades in 2000, the fact that we 
had a Chief's Report for this project meant that I was able to 
support the authorization included in the Water Resources 
Development Act of 2007. Since a Federal role is no longer in 
question, I hope our witnesses will focus more on the details 
of this effort. As the committee of jurisdiction, we need to 
hear specifics about what is proceeding well and what the 
challenges and obstacles are. We need to hear if congressional 
action is needed to better focus or prioritize the Corps' 
activities in this area. My opinion is that the Everglades 
restoration effort is not going particularly well, and I hope 
we can avoid similar mistakes in coastal Louisiana restoration.
    My understanding on the pump to the river issue is that we 
are basically discussing two options for reducing or preventing 
flooding in New Orleans. The first option, the one that is 
currently authorized and the Corps is constructing, combines 
the existing interior drainage system with the ability to pump 
water from the city's three outfall canals to Lake 
Pontchartrain. Previous reports from the Corps tell us that 
this component within the larger system being constructed will 
provide a 100-year level of protection for the city.
    The second option would also contribute to providing a 100-
year level of protection, but it involves redesigning the 
interior drainage system to eliminate the need for interior 
pumps on the outfall canals, instead relying on pumping water 
just at the lakefront or in combination with pumping to the 
Mississippi River. Preliminary estimates indicate that this 
option may be significantly more expensive and complex to 
construct. Operationally, however, it may be more reliable than 
the first option.
    I look forward to the discussion with the witnesses of the 
pros, cons and tradeoffs of each option, and I again thank 
Senator Vitter for prompting this hearing.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
